<html>
<title> - [H.A.S.C. No. 113-22]NATIONAL DEFENSE AUTHORIZATION THE POSTURE OF THE U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-22]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                           THE POSTURE OF THE

                       U.S. NORTHERN COMMAND AND

                         U.S. SOUTHERN COMMAND

                               __________

                              HEARING HELD

                             MARCH 20, 2013


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   _____

                      U.S. GOVERNMENT PRINTING OFFICE

 80-190                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  




                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
              Catherine Sendak, Professional Staff Member
                          Paul Lewis, Counsel
                 Tim McClees, Professional Staff Member
                      Aaron Falk, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, March 20, 2013, Fiscal Year 2014 National Defense 
  Authorization Act--The Posture of the U.S. Northern Command and 
  U.S. Southern Command..........................................     1

Appendix:

Wednesday, March 20, 2013........................................    39
                              ----------                              

                       WEDNESDAY, MARCH 20, 2013
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION ACT--THE POSTURE OF THE 
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Jacoby, GEN Charles H., Jr., USA, Commander, U.S. Northern 
  Command and North American Aerospace Defense Command, U.S. Army     3
Kelly, Gen John F., USMC, Commander, U.S. Southern Command, U.S. 
  Marine Corps...................................................     5

                                APPENDIX

Prepared Statements:

    Jacoby, GEN Charles H., Jr...................................    47
    Kelly, Gen John F............................................    73
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Smith, Hon. Adam.............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Palazzo..................................................   122
    Mr. Rogers...................................................   120
    Ms. Shea-Porter..............................................   121
    Mr. Smith....................................................   119
    Mr. Wittman..................................................   120
 
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION ACT--THE POSTURE OF THE 
            U.S. NORTHERN COMMAND AND U.S. SOUTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 20, 2013.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Good morning.
    The committee meets today to receive testimony on the 
posture of both our Northern and our Southern Command.
    I am pleased to welcome General Charles Jacoby, Commander 
of the U.S. Northern Command and North American Aerospace 
Defense Command; and General John Kelly, Commander, U.S. 
Southern Command.
    Gentlemen, thank you for your long and distinguished 
service to our Nation. And thank you for being here today.
    Even as we proceed in this difficult budget environment and 
the news commands our attention to Africa and the Middle East, 
we must be diligent in keeping our own hemisphere safe. 
Therefore, I was pleased by the Administration's announcement 
last Friday affirming the program of the previous 
administration to deploy 44 ground-based interceptors at two 
sites in California and Alaska.
    On the other hand, canceling the fourth phase of the EPAA 
[European Phased Adaptive Approach] sends a terrible signal to 
America's allies. I would have hoped after the 2009 fiasco that 
we would stop waking up our Eastern European allies to tell 
them at the last minute that we are changing our missile 
defense plans on them.
    General Jacoby, I look forward to learning more about how 
we are filling the gaps in our homeland missile defense.
    I also look forward to hearing your assessment of the 
progress being made by the new president of Mexico on drug-
related violence and what NORTHCOM [U.S. Northern Command] is 
doing to support Mexico and build their capacity and 
capabilities. This is a daily threat and directly impacting the 
U.S. homeland and we need to treat it as a national security 
imperative.
    General Kelly, in my mind, the illicit trafficking threat 
is the greatest challenge we face in your geographic area of 
responsibility. While we continue to see success in Colombia, 
destabilization and violence in Central America is rampant.
    Tackling these issues requires close collaboration and 
coordination with NORTHCOM as well as our interagency partners. 
Unfortunately, the Navy will eliminate its ship presence in the 
Caribbean in April due to sequestration.
    This guarantees an increased flow of drugs and illicit 
networking across our borders. To that end, will you please 
elaborate on the other consequences of sequestration in both of 
your commands.
    Again, thank you, gentlemen, for being here with us today.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I do want to join you 
in welcoming General Jacoby and General Kelly, thanking them 
for their very, very long service. I have had the pleasure of 
knowing both gentlemen for a while. General Jacoby, when he was 
commander out at Fort Lewis, did a fabulous job, was a real 
asset to our community.
    It is good to see you again.
    And, General Kelly, way back when I was first elected, you 
were working in the liaison's office, had the opportunity to 
travel together. You did an outstanding job there and you have 
done an outstanding job since.
    So it is a real pleasure to have both you gentlemen here 
today, and thank you very much for your service.
    In your current commands, I concur completely with the 
chairman. We do have to pay attention to our own hemisphere.
    It is our, you know, first and most important line of 
defense. And I have had the opportunity to meet with both of 
you and I think you are doing an excellent job of that. As the 
chairman said, the main thing we want to know is how is 
sequestration affecting that?
    I know, General Kelly, it is making your primary mission of 
drug interdiction very difficult if you don't have the assets 
to do that. We would like to have you elaborate a little bit 
more on the challenges of that, and what that means for us here 
at home, and how it potentially puts our safety at risk.
    Also, you have the unenviable task of monitoring the 
Guantanamo situation to a certain extent. There are 
increasingly needs down there, in terms of military 
construction, as we fight the political battle back home as to, 
you know, whether we ever close it or how long it is there.
    It is beginning to have implications long-term. I think it 
would be good for this committee to learn a little bit more 
about those implications and the challenges you face. If we are 
going to keep it open, there are funding obligations that are 
coming in order to make sure that our troops that are serving 
down there have the facilities and the support that they need.
    On the homeland side, I had the pleasure of visiting 
NORTHCOM not long ago. I am learning a little bit more about 
what your command is focused on.
    Certainly air defenses--what you do every day to track and 
monitor and protect our airspace--is something I don't think 
most people are aware of. We appreciate that. We would like to 
hear more about that. I concur with the chairman's concerns 
about missile defense, how we need to pay attention to 
protecting our homeland from rising threats in other parts of 
the world.
    And lastly, of course, the situation in Mexico is an 
ongoing and evolving concern. Thus far, we have managed to, I 
think, protect this country fairly well, even as the violence 
in Mexico has become extreme.
    But going forward, I would like to hear more about our 
partnership with Mexico with their newly elected government, 
where you see that going--how we can build on that partnership 
hopefully to begin to make Mexico less violent but certainly to 
make sure that we protect our country from any spillover 
results from that violence.
    With that I yield back and I thank you very much, both of 
you again, for your service and for testifying today.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    We will include your written statements in the record. 
Without objection, so ordered.
    General Jacoby.

 STATEMENT OF GEN CHARLES H. JACOBY, JR., USA, COMMANDER, U.S. 
NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND, 
                           U.S. ARMY

    General Jacoby. Chairman McKeon, Congressman Smith, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    It is a pleasure to be here with my friend and fellow 
combatant commander, General John Kelly. On behalf of the men 
and women of U.S. Northern Command and North American Aerospace 
Defense Command, I appreciate this committee's continuing 
support of our important missions.
    Now in the case of U.S. NORTHCOM, our missions include 
homeland defense. And it is my number one priority mission, and 
a mission in which we also work closely with Canada in our 
integrated NORAD [North American Aerospace Defense Command] 
binational command.
    Next, we remain active in conducting our core mission of 
defense support to civil authorities, for which the highlight 
last year was our participation in the interagency response to 
Hurricane Sandy. And finally, alongside cooperative defense 
activities with our ally, Canada, we continue to conduct 
security cooperation efforts with our close partners in Mexico 
and the Bahamas.
    Now, our NORAD missions specifically include aerospace 
warning and control and maritime warning for the United States 
and Canada. Our command's motto is, ``We have the watch.'' This 
reflects the vigilance with which we approach our duties and 
commitment to both the American and Canadian people. We execute 
our NORAD missions principally through our well-honed and 
uncompromising, 24/7 defense of our skies, Operation Noble 
Eagle.
    Now our citizens have high expectations of our ability to 
defend and support them here in the homeland, and rightfully 
so. In the event of a natural or manmade disaster, U.S. 
NORTHCOM meets those expectations by leveraging the tremendous 
capabilities and capacities of the Department of Defense to 
support a lead Federal agency such as FEMA [Federal Emergency 
Management Agency].
    Hurricane Sandy offered us a glimpse of what a complex 
catastrophe which spans several States and regions could look 
like. We will continue to mature the successful dual status 
command construct provided in the 2012 NDAA [National Defense 
Authorization Act] so that we will be ready to act swiftly and 
with unity of effort when the unthinkable happens and we are 
called.
    Now we are facing an increasingly complex and dynamic 
security environment. Threats are adapting and evolving while 
technologies advance and proliferate, creating greater 
vulnerability in the homeland than ever before and complicating 
the accomplishment of our mission sets from cyber and ballistic 
missile defense to the disruption and defeat of transnational 
criminal organizations.
    As such, a critical command priority is to advocate and 
develop capabilities in our core mission areas in order to 
outpace these threats. Yet, while we are confronted with this 
emerging threat landscape, the current fiscal environment adds 
uncertainty to the availability and development of the 
capabilities we will need to manage the risks these threats 
will pose.
    Readiness concerns are sure to grow, as clearly described 
by our recent service chief testimonies. My most pressing of 
those will include unforecasted cuts to training and exercise 
programs which are fundamental to building the partnerships 
essential for responding to events in the homeland. Unexpected 
loss of service capabilities in readiness could also, in the 
future, erode our ability to conduct our critical homeland 
defense missions.
    Now as we look forward, despite these challenges, our 
current layered partnerships and history of training, 
education, and exercise programs for now leave U.S. NORTHCOM 
and NORAD postured to defend the Nation against a full spectrum 
of threats, but we will have to work hard with the Services to 
sustain that posture as we deal with program and budget 
uncertainty.
    Now, today and in the future, we will remain committed to 
deter, prevent, and defeat aggression aimed at the United 
States and Canada as two commands oriented on a single vision. 
With our trusted partners we will defend North America, outpace 
and mitigate threats, maintain faith with our people, and 
support them in their times of greatest need.
    We will need this committee's continued support to meet 
that vision.
    Thank you for the opportunity to appear before you today 
and I look forward to the questions.
    [The prepared statement of General Jacoby can be found in 
the Appendix on page 47.]
    The Chairman. Thank you very much.
    General Kelly.

STATEMENT OF GEN JOHN F. KELLY, USMC, COMMANDER, U.S. SOUTHERN 
                   COMMAND, U.S. MARINE CORPS

    General Kelly. Chairman McKeon, Congressman Smith, 
distinguished members of the committee, thanks for the 
opportunity to come here this morning and talk about something 
I am very proud of, and that is the United States Southern 
Command.
    We are going to talk about four missions very briefly. The 
first, and as the chairman pointed out, countering 
transnational organized crime. It is both a Title 10--there is 
a Title 10 aspect to this as well as security cooperation 
activities that we are involved in every day.
    Our support to law enforcement includes detention--
detection, rather, and monitoring operations. We share 
information. We build capacity of countries we work with in the 
south in an attempt to dismantle these hugely powerful, 
ruthless, and very well financed organizations.
    The second mission is partner engagement. We focus on 
building relationships with regional militaries to enhance the 
defense of the United States and the security of Latin America. 
Human rights play a role in virtually everything we do, from my 
engagements with regional leaders to our joint training teams 
that are working alongside our partner nations in Central 
America, South America, and the Caribbean.
    Militaries in this region have made enormous strides in 
terms of professionalization and respect for civilian 
authorities and human rights, thanks in very large measure to 
what the U.S. military has done over at least two decades.
    The third thing we do down there is contingency response. 
This involves planning for a wide range of possible crises like 
natural disasters, mass migration. We have seen that in the 
past--evacuation of American citizens.
    And finally, a fourth is, as Congressman Smith pointed out, 
Guantanamo Bay. I manage and take care of the detainees. I 
support the commissions. I do not have any role in the 
commissions per se, but that is the fourth and final mission 
that the U.S. Southern Command is responsible for.
    And I certainly look forward to answering all of your 
questions.
    [The prepared statement of General Kelly can be found in 
the Appendix on page 73.]
    The Chairman. Thank you very much.
    With the Administration's pivot to the Pacific we must not 
lose sight of the security and stability within our own 
hemisphere. What do both of you consider the greatest threat to 
our hemisphere?
    I think when we were talking yesterday we talked about we 
have troops around the world. We travel ``this way'' [east and 
west], and we don't travel much ``this way'' [north and south].
    And I think that we need to make sure that we are not 
taking for granted our neighbors, [to] the south, and our own 
borders here. So, if you could tell us what you think is our 
greatest threat in our hemisphere.
    And then what do you believe, in addressing this threat--
what part of the DOD's [Department of Defense] core mission is 
part of supporting other agencies? And what do you think--what 
do you see the problems with sequestration is going to cause in 
your commands?
    General Jacoby. Chairman, I will start, if I may.
    First of all, as the commander responsible for the defense 
of the homeland and how we support our citizens in the homeland 
with military capabilities, I would say, to put as fine a point 
on it as I can, the thing that is troubling most to me would be 
a weapon of mass destruction that arrives in the country 
through some illicit organization, or--whether it is terrorist 
or transnational criminal or of any nature. And that is my 
biggest concern.
    And that is why our principal effort in our chemical, 
biological, radiological, and nuclear response enterprise is so 
important and has been maintained at a very high standard and 
we are receiving continued support from the Services on that. 
So I think that is really the--before I go to bed, that is what 
I would worry about the most.
    Secondly are unexpected activities or events in the 
homeland, whether natural or manmade. Unexpected catastrophe 
could come from the fault systems on the West Coast to 
earthquakes or volcanic activity--something of a ``Sandy-times-
two,'' ``Sandy-times-three,'' where we would have to be very 
focused and not being late to need--to support our citizens.
    And so that may sound strange to have it be that high on 
the list, but since I have been in command I have had three 
major hurricanes, two major wildfires. We were very active in 
the last major Northeast snowstorm. So there is an expectation 
that we are going to do better and better at supporting our 
civil authorities in that regard.
    And then we have some of the standard, longstanding, what I 
call now ``hybrid'' threats--states that can range or pose a 
threat to us, all the way from traditional means, whether it is 
missiles, aircraft, existential threats, but all the way down 
to unattributable threats such as cyber. And so those are new 
types of threats. They are difficult to deter across the entire 
spectrum because of degrading amounts of attribution and 
deterrent capability that we have.
    So those are the--really the three bins of things that 
concern me in the homeland.
    In supporting other agencies, in the homeland I get depth 
in the defense of the homeland by partnering. That is how I get 
depth--by creating relationships across Federal, State, and 
local agencies that allow us to see the whole ``safety, 
security, defend'' paradigm. And the better we are doing as 
partners in safety and security the less we may have to do in 
defend, or the more effective we are if we have to defend.
    And so, for instance, along the Southwest border, that is a 
terrific opportunity for us to partner with Customs and Border 
Protection services.
    They have got the lead. They have got the mission. But they 
are that front line of defense for illicit activity that could 
come into the country. And although they don't work on it every 
day, they are having an effect that is very beneficial for 
perhaps other types of illicit activity that would fall more 
within NORTHCOM's realm.
    So that is where I think that partnering with other 
agencies may be a little more important in the homeland than 
just about anyplace else. And we have wonderful partners. In 
our headquarters today, 60 interagency partners from 50 
agencies help bring a unity of effort that we haven't seen in 
the past before.
    And finally, on sequestration, just a brief comment, 
Congressman, and I can go into more detail later, but I don't 
own a lot of assigned forces in the homeland so I am reliant on 
trained and ready forces provided to me by the Services on very 
short notice. And so, as service readiness erodes, as risks are 
taken across the readiness front, that will have an impact on 
my ability to accomplish my missions from homeland defense, 
defense support to civil authorities, and theater security 
cooperation with our critical partners in Canada, Mexico, and 
the Bahamas.
    The final thing on sequestration is the morale factor for 
the people that work for NORAD and U.S. Northern Command. And 
so the idea of, for instance, of furloughing civilians--my 
civilians are critical to what I--what we do. That is one of 
the great changes I have seen over 36 years of service is the 
role civilians now play.
    They help us with missile defense. They help us with--they 
are essential to our NORAD mission across all of our mission 
sets. And so telling them that they are going to take a 20 
percent pay cut because we haven't been able to manage our 
budget is a really tough pill to swallow for dedicated, loyal, 
committed members of my team.
    So thank you, Congressman.
    The Chairman. Thank you.
    General Kelly.
    General Kelly. Mr. Chairman, I think the committee 
understands that the U.S. Southern Command has traditionally, 
at least in the last 10 or 15 years, been kind of the economy 
of force command of all the geographical ``CINC [commander in 
chief]-doms.'' So, for a long time we have operated down in the 
Latin America or Caribbean without a lot of assets. Now, the 
good news story is there is not, from a military point of view, 
there is not a great number of military threats down there, at 
least towards the United States.
    But I am the beginning of the away game, if you will, for 
Chuck Jacoby's home game. If he is worrying about things that 
are coming across the Mexican border or coming through a port 
somewhere in the United States I think we have probably failed 
him and the American people in keeping it away. And I do think 
we fail the American people every day because there is so much 
that gets through that we can't take off the playing field, if 
you will.
    The first thing I would--what is the greatest threat down 
there? To me, it is really the network--the network that we 
deal with.
    Obviously, you think about drugs initially, but the network 
we deal with is incredibly efficient and it is plugged into a 
worldwide network of crime. And anything that anyone wants to 
put on that network, wherever it is in the world, if it is--if 
that person, if that individual, if that enemy of ours wants to 
get it into the United States, pretty good chance he or she can 
do it.
    So the network is incredibly concerning to me because, as I 
say, almost anything can get on that network. You know, we 
watch, obviously, the drugs that come up from Central America 
and from Mexico. A lot of it is taken off the market, so to 
speak, on the way in, but an awful lot of it does get in. We 
watch individuals come into the network from as far away as the 
Middle East.
    Now, there are individuals that are trying to get into our 
country to make a better way of life and to jobs and things 
like that, but these are not the same kind of people. People 
pay big, big, big money to go from, say, I will give you an 
example, say Pakistan or from places like that, from Iran, pay 
big money to get into Latin America, and then they get on the 
network and disappear and get into America.
    Whatever they are up to, they are not paying--they are not 
coming here to drive a cab in Washington, D.C., and they are 
paying a lot of money to get here. So the network is the thing 
that concerns me.
    Like Chuck, what we do in the south and SOUTHCOM [U.S. 
Southern Command] is a very, very whole-of-government, 
interagency, not just DOD. In my headquarters we have dozens of 
the same kind of individuals that represent the entire U.S. 
Government--DEA [Drug Enforcement Administration], FBI [Federal 
Bureau of Investigation], Border Patrol, all of the agencies. 
They are all heroes. They all work as hard as I do to try to 
serve the Nation and keep these malign influences and objects 
from coming into the United States.
    But again, the network is incredibly efficient. It 
certainly rivals anything that Federal Express can do. It has 
1,200 hubs that we know of in the United States, all controlled 
by cartels. They move hundreds and hundreds of tons of drugs, 
as an example, along that network.
    You know, drugs in America cost us 40,000 lives a year, not 
all from what comes in the country. A lot of it is from 
prescription drugs. But 40,000 people a year die from drugs--
our countrymen.
    And you can't even put a number on the human misery 
associated with that, with families that lost children and all 
of that. Drugs cost our country $200 billion a year, much of it 
in trying to rehabilitate drug addicts.
    A relatively small amount of it, $26 billion, is used in 
law enforcement. But if drugs get ashore in Central America 
they are essentially in the United States with almost--with 
very, very little success in taking them off the market.
    But the profits that the drugs generate from the drug use 
in the United States obviously goes back into the drug cartels' 
pockets to generate more drugs that come into our country. But 
it also generates malign influences, or influences in other 
areas. And we know that Islamic extremist groups, as an 
example, benefit from the drug profits from our country.
    We also know that drug trafficking, sex slaves, this kind 
of thing--much of that is financed by the drug trade coming out 
of the United States once the money is laundered down through 
Mexico and Central America.
    What does sequestration do? Probably the most--the starkest 
figure I could give you is, generally speaking--and we 
understand this network, by the way, in the same way--almost to 
the same degree that we understood and understand the Al Qaeda 
network in Africa or in the Middle East.
    But last year--numbers are up and down, but somewhere 
between 150 and 200 metric tons were taken off before they ever 
got ashore--of cocaine--before they ever got ashore in 
Honduras. And as I say, once it gets ashore in Central America, 
as hard as the Hondurans are in this fight with us, the 
Guatemalans, the Belizeans, the El Salvadorans--and they are 
shoulder-to-shoulder with us in this fight, with terrible, 
terrible death tolls in their countries, and of course, the 
real shining example of how to win the drug war is Colombia, 
and they are hugely appreciative of what we have done for them 
over the years.
    But the point is that 200 tons--and that costs the U.S. 
Government about $600 million to take 200 tons off the market. 
Because of sequestration, if I lose all of the ships I am 
expected to lose, and ships are critical, as is airborne ISR 
[Intelligence, Surveillance, and Reconnaissance]. If I lose 
those assets, if they go to zero, and there are some that are 
predicting they will go to zero, then all of that cocaine, all 
of it, will get ashore. And more, I would predict, will get 
ashore and be on the streets of New York and Boston and 
Portland, Maine, and all the rest of it very, very quickly.
    So we would essentially, with the exception of what our 
partners can do for us, particularly, as I say, the heroic 
efforts on the Honduran part and the Guatemalans and others--
but they take very little off the market--all of that drug will 
get into the United States.
    I also have had to cancel much of--some of my engagements 
in Latin America. These are small engagements. These are 12, 15 
members of my staff going down and advising, you know, 
Colombia, Peru, Chile, all of these great partners--Brazil--
advising them on this, that, or the other thing, maybe sending 
mobile training teams down. But I have had to cancel these.
    And I live and breathe the engagement. I live and breathe 
on small trips down into the AO [Area of Operation] I have had 
to curtail my own trips in the future down into the AO.
    And, you know, that leaves a question in their minds as to 
how committed the United States is to them. They want us in 
their lives, with the notable exceptions of a few countries. 
They want us in their lives.
    They are very happy on the mil-to-mil relationship we have. 
They are very happy on the law enforcement relationship we have 
with them. But they question the commitment beyond that because 
there is so little interest already in that part of the world.
    Our State Department does tremendous things in our 
embassies throughout the region, but it is hard to argue that 
the United States should be the partner of choice in that part 
of the world when we don't really do much in the way of 
partnering anymore.
    So thanks very much for an opportunity to answer that 
question.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I apologize, I will have to pass and get my questions in a 
moment. I have got a phone call that I have to take at 10:30, 
so I will pass to Mr. Larsen if he is ready, and when I come 
back I will take my questions then.
    Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Do I have Ranking Member Smith's unlimited time 
to ask questions, as well?
    [Laughter.]
    Didn't hear an answer. All right, we will move on.
    General Kelly, some questions about Guantanamo, if I could. 
First, with regards to listening and recording of 
conversations, there have been reports of listening devices 
disguised as smoke detectors in meeting rooms where detainees 
meet with their defense counsel. And are you familiar with 
this, that JTF-GTMO [Joint Task Force Guantanamo] has placed 
listening devices in meeting rooms where detainees have met 
with attorneys?
    General Kelly. Am I familiar with the issue?
    Mr. Larsen. Yes.
    General Kelly. Yes sir, I am.
    Mr. Larsen. Yes.
    General Kelly. It is nonsense, but I am familiar with the 
issue.
    Mr. Larsen. It is why I am asking. It is why I am asking.
    So have these conversations between counsel and detainees 
been listened to or recorded in the detention facility at 
Guantanamo?
    General Kelly. No.
    Mr. Larsen. Are there currently any video or audio 
recording devices in meeting spaces of the detainees and their 
attorneys?
    General Kelly. Visual--video.
    Mr. Larsen. There is video.
    General Kelly. And I can elaborate if you want, I----
    Mr. Larsen. Yes, absolutely. Absolutely.
    General Kelly. Guantanamo was built to be a temporary 
facility----
    Mr. Larsen. Yes.
    General Kelly [continuing]. Eleven years ago.
    Mr. Larsen. Yes.
    General Kelly. If we would have had any idea we were going 
to be there even 5 years doing the operations down there that 
have changed significantly, as you know, over the years----
    Mr. Larsen. Yes.
    General Kelly [continuing]. If we knew we were going to be 
there 5 years even, we would have built a different facility. 
If we would have known we were going to be there 11 years we 
would have built a--you know, so this is kind of really a 
thrown-together operation, and it is really not 11 years long, 
it is 1 year 11 times.
    And as the ranking member mentioned, I mean, all of these 
temporary buildings, for the most part, are falling apart. And 
we really do need to get serious about taking care of our 
troops that are down there as well as improving the security--
not the creature comforts, if you will, for the detainees.
    Mr. Larsen. Right.
    General Kelly. They are already well taken care of in that 
regard. But taking care of our troops.
    But the point is that many of the--the facility was not 
built for any one thing. So years ago that particular facility 
was used for another purpose and that purpose required not only 
audio devices but visual devices. It was not used for attorney-
client rooms. Again, the mission down there has morphed over 
time.
    So the room that they were using for attorney-client 
discussions still had equipment, but that equipment was not 
energized, it was not used. And I can tell you that without 
question, we have not violated their rights by listening in.
    Now what I have done is--since this became an issue I said, 
well, let's just make this simple. Let's pull it all out.
    And in fact, this week not only have we pulled it all out, 
with exception of the video cameras, we are sending down some 
counterintel people to make sure that they have special 
technical devices to make sure that there is--they are all out.
    So no, they weren't listened to. Yes, the video devices 
will remain--temporarily, at least. And the attorneys will 
understand that.
    Mr. Larsen. And why are the video devices staying?
    General Kelly. Well, some of these men, arguably, are 
dangerous--arguably are dangerous.
    Mr. Larsen. Sure.
    General Kelly. And although you would think that their 
defense attorneys would be safe, I have a responsibility to 
protect the defense attorneys as well, as I do the ICRC 
[International Committee of the Red Cross] that visits and the 
5,700 non-DOD people that have visited Guantanamo since the 
beginning.
    Mr. Larsen. Right.
    General Kelly. I have a responsibility to protect them, and 
so I believe it is prudent to keep the video cameras going. And 
we will see--if they contest that, which I am sure they will, 
then we will see what the----
    Mr. Larsen. I understand.
    General Kelly [continuing]. The judge has to say.
    Mr. Larsen. I understand.
    With regards to the hunger strikes, what is your 
understanding of why the hunger strike is happening?
    General Kelly. Well we, in talking to the detainees and 
talking to the hunger strikers, so-called----
    Mr. Larsen. Yes.
    General Kelly [continuing]. They had great optimism that 
Guantanamo would be closed. They were devastated, apparently--
and I don't live down there but they work for me--they were 
devastated--not the detainees, of course--they were devastated 
when the President, you know, backed off, at least their 
perception, of closing the facility. He said nothing about it 
in his inauguration speech; he said nothing about it in his----
    Mr. Larsen. Yes.
    General Kelly [continuing]. State of the Union speech; he 
has said nothing about it. He is not re-staffing the office 
that would be--that was, you know--that looks at closing the 
facility, so----
    Mr. Larsen. Right.
    General Kelly [continuing]. That has caused them to become 
frustrated and they want to get this--I think turn the heat up, 
get it back in the media.
    And we know that because they talk to us. We have, 
actually, a fairly positive relationship down there with most 
of the detainees.
    And we have definitions of what a hunger striker is, and of 
course we have an ability to take care of them if they go too 
far, and we will. I hope that answers your question.
    Mr. Larsen. Thank you.
    I see my time is up. Thank you----
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, General Jacoby and General Kelly, it is a pleasure to 
listen to you, as you are leaders of our Nation. And thank you 
very much.
    And, General Kelly, I think it was maybe a couple years ago 
I either read a book or we had a hearing on the Southern 
Command, and it seems like that I, in my mind, remember 
whomever spoke or the book I read, that there was an interest 
in the number of those from the Middle East coming into 
Honduras.
    In your comments you made mention, but just very--not 
casually, but you made mention that Middle Easterners coming 
into Central America. And my question is basically, is there a 
concern from either one of you gentlemen that one country or 
another country, you are seeing more activity of those from the 
Middle East moving into that country as to the point that maybe 
the population numbers are going to be at a point that they 
could have some type of political influence within that 
country?
    General Kelly. Probably the country that we see--the 
country we see with the most activity from the Middle East is 
Iran. They have been very, very active over the last few 
years--a close relationship with Hugo Chavez, of course, in 
Venezuela. That became their kind of best friend in the area.
    But since then they have opened embassies, they have opened 
cultural centers, they have done things like that. On the 
surface, certainly nothing wrong with that if they are just 
doing that to try to create better relations between them and 
other countries in the world, but to what end is obviously the 
issue.
    In an unclassified setting can't get into some of the 
aspects of what they are using some of those centers that they 
are opening and even their embassies--what they are using them 
for, but in an open hearing we can say that they are certainly 
trying to befriend or get friends in the region because the 
more of that they can have on their side, you know, things like 
sanctions and all, activities in the U.N., condemnation, they 
are trying to create friends out of that.
    We will leave that, you know, in terms of what I can say in 
an open setting about what the Iranians are doing.
    But just very briefly--and it is not Middle East, but, you 
know, the Chinese, as an example, are doing very similar things 
economically. They have penetrated Latin America in a big way 
economically--not a bad thing, but it is something that they 
are very aggressive, as they are all over the world, frankly.
    Mr. Jones. General Jacoby, would you like to answer, sir?
    General Jacoby. Yes, sir.
    We are keeping our eye very closely on any Iranian activity 
in my area of responsibility. I do not believe that they wield 
any influence on the governments, but they are certainly 
aggressive. Iranians are aggressive globally, and so any 
Iranian involvement in Mexico, Canada, Bahamas will be 
highlighted for us.
    And we have good partnerships there and I don't see it as a 
threat other than the network itself of any Iranian activity.
    Mr. Jones. Mr. Chairman, I think it would be important if I 
might suggest that we hold a classified hearing on Central and 
South America, because of the problem. And you said this, Mr. 
Chairman, in your opening comments--for too long, I think, our 
country--maybe the Congress--has not been as interested in the 
southern hemisphere as we should be.
    And I do think that, from what I have heard from General 
Jacoby and General Kelly today, that a classified hearing to 
get more into the details of the Iranians and also the Chinese 
would be very beneficial, and I assure you I would be here if 
we have that kind of hearing.
    So thank you, gentlemen, very much, and I--40 seconds left, 
I will yield back my time.
    The Chairman. Thank you, and thank you for your suggestion. 
We will definitely look into that. We have lots of hearings 
scheduled the next few weeks, but we will see what we can do on 
that.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Kelly, the 2009 Guantanamo review team made 
recommendations for conditions at that facility that it warned 
might become inhumane over time. Since those recommendations 
were made there has been no outside evaluation to assess the 
current conditions of Guantanamo, which have changed since 
2009.
    In addition, it is clear that the attorneys who represent 
the inmates are the best sources of information on the 
conditions under which their clients live.
    General Kelly, in 2009, at the time of the study, the 
office of chief defense council was given less than 24 hours to 
generate an ad hoc list of issues that were forwarded to the 
2009 review team to consider as they conducted their review. No 
allowance was made for the provision of classified or otherwise 
protected information.
    At least two defense teams attempted to provide 
unclassified information under their own initiative and sought 
permission to provide classified or otherwise protected factual 
information, but each was blocked from providing that 
information. One team was told that the Central Intelligence 
Agency would not allow them to release the information to the 
Secretary of Defense or his staff.
    Inmate lawyers are certainly a better place to learn and 
transmit information about the impact of confinement conditions 
on their detainee clients. They are better equipped than any 
other source. A more reliable study would allow meaningful 
input by counsel.
    Why has there been no followup with regard to these 
conditions identified in the 2009 Guantanamo review?
    General Kelly. Congressman, first--and I don't mean to 
challenge you--but there is no one on this earth that is better 
positioned to tell you what the conditions are inside 
Guantanamo than me. No one. Not their defense attorneys. Not 
their families. Nobody.
    I can tell you that they are humanely dealt with. They are 
obviously in jail. They are in a detention facility. But from 
the standards that are set in our own country in terms of these 
kinds of operations--in fact, the ICRC gives us very, very high 
marks down there every time they visit for how they are treated 
and how they are dealt with----
    Mr. Johnson. Well certainly, General, I accept the fact 
that you assert and have no reason to doubt what you are 
asserting, but in terms of independent assessment, that is what 
I am talking about.
    The attorneys seem to have been shut out of the process, 
and moreover, there appears to be no followup with regard to 
the conditions that were cited in the 2009 study that may 
become inhumane conditions. And so I think that it deserves a 
fresh look. It deserves an impartial look and a full 
investigatory look from different perspectives.
    So I understand your perspective. I think the defense 
counsel has a different perspective, and perhaps some of the 
organizations bring their own perspectives to that mix.
    Why hasn't there been a followup?
    General Kelly. As I say, Congressman, I have no agenda at 
Guantanamo other than to do what my President has charged me to 
do: to take care of 166 prisoners--excuse me, detainees--and to 
take care of them humanely and provide them all of what they 
need on a day-to-day basis. And I do----
    Mr. Johnson. Well my question is, why hasn't there been a 
followup----
    General Kelly. I do that every day.
    ICRC comes down regularly unannounced and announced. They 
know what goes on inside the detention facility. They give us 
high marks.
    Mr. Johnson. So pretty much we are just going to have to 
rely on your assertion to us that everything is fine down there 
in Guantanamo and we are not going to get an independent review 
of the conditions down there? Is that what you would testify 
to?
    General Kelly. We get an independent view on a regular 
basis. The International Committee of the Red Cross is down 
there regularly. I mean, that--they are as independent as 
anyone.
    Mr. Johnson. I don't know if their agenda is the same as 
defense counsel or other interested parties' might be.
    The Chairman. Gentleman's time has expired.
    I would ask the gentleman, have you had a chance to go to 
Guantanamo?
    Mr. Johnson. Yes, I have.
    The Chairman. Would you like to go again?
    Mr. Johnson. Actually, I would like to see that facility 
closed and I would like to see the inmates housed elsewhere.
    The Chairman. The reason I am asking, I would be happy to 
put together a CODEL [congressional delegation] for any members 
that would like to go down there and see for themselves the 
situations they see at----
    Mr. Johnson. I will state for the record that when I was 
down there about 5 years ago I was definitely impressed with--
--
    The Chairman. Five years, and the general has been down 
there much more recently than that. But if you would like to 
go, let me know and we will put together a CODEL for anyone 
that would like to----
    Mr. Johnson. Thank you, Mr. Chairman, and I may take you up 
on that.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, General.
    And, Mr. Chairman, thank you not just for offering to do 
that, but for your leadership in having had those CODELs 
before, and you have taken a lot of members down there. I had 
the privilege of going down there with you and we got to see 
firsthand, and we are about as independent as you could get 
from this committee.
    And, General, I think you are doing a great job and we 
appreciate your efforts down there.
    General Jacoby, in the prepared testimony of the director 
of national intelligence last week he stated--said, ``We judge 
Iran would likely choose a ballistic missile as its preferred 
method of delivering a nuclear weapon. Iran's ballistic weapons 
are capable of delivering WMD [weapons of mass destruction]. In 
addition, Iran has demonstrated an ability to launch small 
satellites and we grow increasingly concerned that these 
technical steps, along with a regime hostile toward the United 
States and our allies, provide Tehran with the means and 
motivation to develop larger space launch vehicles and longer-
range missiles, including an intercontinental ballistic 
missile.''
    General, do you agree with the statement, and has Iran 
decided to build an ICBM [intercontinental ballistic missile]?
    General Jacoby. I concur. I agree with the statement by the 
director.
    It is my belief from every day looking closely at the 
intelligence that Iran is on the path to developing an ICBM and 
that they have demonstrated capabilities that should inform us 
that they can achieve, in the future, an ICBM capability.
    Mr. Forbes. When is the earliest, in your best professional 
military judgment, that you believe Iran could flight test an 
ICBM, and could they do it this year?
    General Jacoby. Some of these estimates need to be 
discussed in a----
    Mr. Forbes. I understand.
    General Jacoby [continuing]. In a closed hearing, and we 
would be glad to. I think that we should consider that Iran has 
a capability within the next few years of flight-testing ICBM-
capable technologies.
    Mr. Forbes. Are you worried about Iranian military and 
Islamic Revolutionary Guard Corps ballistic missile programs, 
and are they both, in your opinion, under the firm control of 
the Iranian leadership? And why are there two programs?
    General Jacoby. Congressman, I think that many of the 
issues associated with that very good question need to be 
discussed in closed session.
    Mr. Forbes. Well, General, I would hope that we could 
arrange that so that members of this committee and the chairman 
could orchestrate an opportunity for us to do that. I think 
this is a crucial thing for us to be looking at.
    And specifically, when we have that--Mr. Chairman, if we 
could have that kind of briefing--we would love to get your 
input on what additional resources, if any, you need to make 
sure we are adequately dealing with this situation. I know some 
of that you will have to give us in that classified setting as 
well.
    General Jacoby. Thank you, Congressman. I would be very 
happy to do that.
    Mr. Forbes. Thank you.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Actually, I spoke with General Dunford on the phone getting 
an update from Afghanistan, so they are doing an outstanding 
job over there, as we all know.
    I want to talk through the Guantanamo thing just for a 
minute--couple of editorial comments and then one question. I 
know there is--we have had this debate and argument in this 
committee and I am not interested in restarting that particular 
argument at this moment, but there are some very severe long-
term implications of what is going on down there.
    We have I think it is 166 inmates down there now. They are 
aging, as we all are, and there are certain--there is a certain 
lack of support facilities in that general area. And if we are 
planning on keeping them there forever, there is an enormous 
amount of expense, in terms of both caring for the inmates and 
then also dealing with our staff down there that has to do 
that.
    You know, I think medical care is one of the biggest 
concerns. There are not, you know, the first-class facilities 
down there. And as the law stands now, if we have an inmate who 
has a heart attack, doesn't die, but needs more complicated 
care, where is he going to get it in Guantanamo? He is not. And 
that opens up all kinds of implications in terms of human 
rights violations and problems that we would have with our own 
laws, as well as with international laws.
    And, you know, Miami may be 2 or 3 hours away, but under 
the law right now we can't take them there, and sort of on, and 
on, and on. We have got, you know, the--not to use the cliched 
joke, but it is the Hotel California: You check in but you 
can't ever check out on any----
    And that is not sustainable, you know? I don't know if it 
is not sustainable past 3 years or 4 years or 10 years, but at 
some point we will have an utterly and completely unworkable 
situation in Guantanamo if we continue to say that once you are 
there you can't ever be let out. We need to think about that as 
policymakers and how we are going to deal with it.
    And in the short term, since we have a standoff between the 
Administration that would like to close Guantanamo and Congress 
that will not let them, Congress wins that fight--just the 
nature of the process--so the place stays open, but we then 
have expenses of keeping it going.
    So with that preamble, the question is: What are your 
short-term needs--things that we simply have to begin building 
down there? And, you know, we hate to invest military 
construction down there if you think the place isn't going to 
stay open very long, but we reach the point where we have to 
because it is open. It is going to be open for the foreseeable 
future regardless of how any one of us feels about that.
    So what are the short-term needs that this committee and 
this Congress has to provide to you to make sure that your 
troops down there get the support they need to do the job that 
they are doing?
    General Kelly. Congressman, we briefly discussed this 
yesterday. I am with you, by the way, on the medical care. I 
have gotten some legal opinion from the general counsel of DOD, 
who has advised me on what our--not necessarily our public 
affairs position is relative to, as you point out, one of them 
having, say, a heart attack and we stabilize him there on-
island but can't move him off to a higher level of care----
    Mr. Smith. We are stealing that example directly from what 
you said to me yesterday, so for full attribution, but go 
ahead.
    General Kelly. So, that is a concern, but I am told legally 
as long as they have access to all of the medical care that is 
available on-island--which is--it is considerable. There is a 
naval hospital there, but it is kind of a small--it would be 
like a small town hospital. It is--doesn't have a higher level 
of care for, say, cancer treatment or kidney treatment or 
something like that.
    But in any event, I have dealt--worked with the general 
counsels on this issue and feel as though at least the advice 
they have given me is we are within the law so long as they 
have access--and immediate access--to any and all medical care 
on-island, and they, of course, have that.
    As far as things like MILCON [military construction], if we 
would have built that--if we had built the facility down there 
thinking that it would even be open 10 years, we would have 
built a far different facility.
    So what are the immediate needs down there? I have 1,900 
mostly uniformed personnel in JTF Guantanamo Bay--Joint Task 
Force Guantanamo Bay--roughly 1,900. They are living in, to say 
the least, not squalor but in some pretty questionable--we need 
to take care of our troops. So we have several MILCON projects 
that I have submitted.
    And as you know, Congressman, everything that is built down 
there is at least twice as expensive because everything that we 
build with, to include the carpenters that have to build it, 
has to come----
    Mr. Smith. You have got to get people there.
    General Kelly. Yes. So it is really 55 percent, so a 10-
penny nail costs 20 cents. So everything is more expensive.
    So we have to take care of barracks. We have to replace the 
dining hall, the mess hall, as marines would call it. It 
prepares meals not only for my guard personnel, most of whom, 
as I say, are uniformed, but the--for the detainees, as well. 
It is literally falling apart.
    And there are other projects that have to do with--none of 
them have anything to do with, you know, if you will, creature 
comforts for the detainees. They are already living humanely 
and comfortably, acknowledging the fact they are in jail, but 
they are humanely and comfortably treated.
    So none of these projects would enhance their lifestyle, if 
you will. But some of the projects will add security and better 
ease of movement for them. That will benefit the guard force, 
not the detainees--make the guard force's life a lot less 
complicated. But we are talking in the neighborhood of $150 
billion to $170 billion--excuse me--million dollars, so it is a 
considerable bill.
    There are other projects that I couldn't talk about here in 
the open, but do have to do with replacing one of the camp 
facilities where some of the detainees are--special detainees 
are housed. We could get into that off-line if you want.
    Mr. Smith. Okay.
    General Kelly. But that is where we are right now. These 
are things that we have to do right now.
    I am assuming Guantanamo will be closed someday, but if we 
look into the past 11 years, it was supposed to be temporary. 
Who knows where it is going? We have got to take care of our 
troops.
    Mr. Smith. Yes. I completely agree with that.
    That is all I have. I have had the opportunity to speak 
with General Jacoby before and visit with him so most of my 
questions have been answered.
    So, sir, I will yield back.
    And again, thank you, gentlemen, both.
    The Chairman. Thank you.
    And staff has informed me that Congresswoman Roby is 
leading a delegation to GTMO [Guantanamo] on April 22nd. We 
have three other members signed up, so anybody else that would 
like to go, please contact staff and get on that trip and we 
will send out some notice to all of the members if they have an 
interest to join in that CODEL.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank both of you for being here today.
    And, General Kelly, I am so pleased with the success of 
Plan Colombia. Our family works with the Partners of the 
Americas program, where each American State is associated with 
a part of Central and South America. South Carolina is 
associated with Southwest Colombia. We have hosted exchange 
students from Cali. Two of my sons have actually been exchange 
students to Cali.
    And so this is a success story about Plan Colombia that the 
American people need to know. If you could tell us what the 
current status is, that would be very helpful.
    General Kelly. It is a great program. I have had something 
to do with it in other places other than SOUTHCOM, but I just 
talked to SOUTHCOM. I think we have 26 partnerships with 
States' National Guard all over the Caribbean, Latin America, 
Central America. It is a great program. It is a grassroots 
program.
    I think the exchange is both ways, as you point out. I 
mean, people in South Carolina, to use your example, have 
learned a lot about a place they would have never--probably 
couldn't find on a map, except that there is this great 
relationship between Colombia and the South Carolina Guard.
    I think they, as I said, they get more out of the--just the 
example we show them and how we interact with them on a mil-to-
mil basis. You know, we treasure in our country the 
relationship between the military--civilian control of the 
military. A lot of countries in the world don't see that, but 
increasingly, through the guard program or the partnership 
program, more and more countries are getting that message.
    Same thing with human rights. I mean, we can lecture people 
all day long about human rights, but by our example, by the 
great guys and gals from South Carolina National Guard or 
whatever that they interact with, they get it. And they get it 
more and more and more.
    So I can't say enough good things about the program, sir.
    Mr. Wilson. And how would you characterize the level of 
violence that has been addressed in Colombia? And the American 
people really aren't aware. Actually, this is a country of 40 
million people. It is huge. And it--the people there are just 
extraordinary. And so the level of violence is--how is that 
being addressed?
    General Kelly. Fifteen, 17 years ago when I worked up here 
as a--the Marine liaison, I can remember the debates about 
Colombia, and some of you will remember those debates. Colombia 
was considered at the time to be a failed state. You couldn't 
move outside of your home in Colombia without being at risk of 
being killed. I mean, the country was run by the Medellin and 
the Cali cartels.
    I mean, and here we go--or here we are a few years later 
with a considerable investment of U.S. funds--I mean, it is in 
the billions of dollars. But now we have a country that is not 
only shoulder-to-shoulder with us fighting our drug problem 
down there--they took 200 tons of cocaine off the market before 
it ever left their country and got into places like Venezuela 
or started the trip up to Central America--200 tons.
    The biggest IED [improvised explosive device] casualty 
problem in the world outside of Afghanistan is in Colombia 
because it is how the cartels protect the factories in the 
jungle that make the cocaine, or how the growers--the cartels, 
the FARC [Revolutionary Armed Forces of Colombia]--how they 
protect the grower--you know, the orchards, if you will. They 
are in this thing, but the violence--it is an amazing place.
    You can go to Medellin now and go out to dinner and there 
is no violence. In Bogota where you used to be able to--you 
could hear the bombs going off at night from the FARC, and now 
all of that is pushed very--is pushed well away from the 
population centers. So the violence has gone down dramatically 
in the last 10, 12 years.
    Mr. Wilson. Well, congratulations--an extraordinary success 
story.
    General Jacoby, I am very concerned and--but also 
supportive of missile defense. In the 2013 budget request there 
was a reduction in the ground-based midcourse defense program 
of $256.8 million. Why was the funding reduced and how does 
this impact the reduction of GMD [Ground-Based Midcourse 
Defense] operations reliability and any modernization?
    General Jacoby. Congressman, I would have to look exactly 
at what those cuts were in. In 2013 we have made some great 
progress, particularly with testing, which is directly 
impacting the reliability of the GBI [Ground-Based Interceptor] 
fleet. So I think that what we have seen with the rollout, the 
introduction of new initiatives in ballistic missile defense 
that was announced Friday, I think we are on a good path to 
outpace the threat--both North Korean and Iranian threats in 
the future.
    Mr. Wilson. Thank you, very much.
    The Chairman. Thank you.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask--I had 
a NORTHCOM question. I am from Texas and we are a border State, 
and I wanted to know particularly about the drug-related 
violence in Mexico and partnering with the Mexican police to 
bolster efforts there.
    General Jacoby. All right, thanks for the question. We have 
had a really important change over the last 4 years or so, 
probably a little bit more than that, in our military-to-
military relationship with Mexico. We have become very good 
partners and a lot of that has been a centerpiece of, you know, 
going after, together, a shared problem, which is the drug-
related violence.
    And so I can point to numerous routine border conferences 
that are held between U.S. law enforcement and U.S. military 
and Mexican military. They are very beneficial. They are very 
cordial, and they make real progress: improved communications, 
improved information sharing. And we have not seen diminishment 
of that over the change of administration--the recent change of 
administration in Mexico.
    So there is still a lot of work that has to be done. There 
is still more violence than either country wants.
    The violence shifts around a bit. There is less in the 
north now and more deeper into Mexico. There has been a 
decrease--a percentage decrease so far in 2013. But it has 
moved and it has increased in other parts of the country.
    So this is a tough fight against a resolute, well-funded 
enemy. But, you know, the commitment we have with our Mexican 
partners is very strong, and I believe that our partnership 
will just grow over time.
    Mr. Veasey. Some of the border cities--you know, El Paso 
and some of the areas in the valley that are along the Texas-
Mexico border--are some of the safest cities on the United 
States side. With some of the violence, you know, that 
continues in Mexico, do you think that enough is--what we are 
doing right now is adequate enough to ever stop that from 
spilling over? Because they have done it--they have been doing 
a great job so far.
    General Jacoby. Right. So security is going to remain a 
moving target. It is going to remain a moving target as long as 
we are not having a disruptive effect on the networks 
themselves.
    And so it is not geographically bound. It is going to be an 
issue of working together across many governments, not just the 
United States and Mexico, and across the agencies to attack 
this network--this system of networks that is able to exploit 
vulnerabilities and gaps as they expose themselves.
    And when they run into a brick wall that, you know, good 
law enforcement, good partnering has created with technology 
support, they adapt. And they are agile.
    And so, we have to go after the network. We have to go 
after financiers, logisticians, operators, and leadership.
    And we also have to make sure our institutions--and this is 
essentially a law enforcement problem so we have to make sure 
our institutions and our partners' institutions are strong and 
can provide the kind of security that allows for an environment 
where we can attack the network more effectively.
    Mr. Veasey. Let me ask you one more question, and this may 
be outside of your purview. The Wall Street Journal has done a 
really good job of highlighting the drug-resistant tuberculosis 
problem that is happening in India.
    And as you know, recently there was someone that actually 
came, you know, from India and tried to come through Mexico, 
and that would have brought that drug-resistant strain here 
into the country. How do you feel about people being on the 
lookout for--and I know it is--obviously you can't tell if 
somebody has tuberculosis, but fighting something like that, 
just someone that looks like, you know, a normal person coming 
in. What do you do about that?
    General Jacoby. Well, we have a limited role in Support of 
Civil Authorities, and so we actually do have a plan for how to 
support civil authorities if there was ever a pandemic crisis. 
So we are going to roll up our sleeves and get behind the 
relevant agencies that would deal with that.
    But I think you ask a really good question in terms of--it 
is not illicit activity but unwanted activity that crosses our 
border, and so it goes back to the network. So the network that 
would bring you drugs and what that does to our society, human 
trafficking, money laundering, weapons--there are all kinds of 
things that can ride on that same network.
    And so, as you know, in Texas we had a whole lot of 
children with chicken pox dropped off on the border. Those 
children did not come from Mexico. They came from all over 
Central America, brought on the same wave of these networks and 
deposited them on the border.
    And so I think you bring up a very good point and it is 
another reason why we need to look harder and work with our 
partners across the globe and interagency to get a better 
handle on this.
    The Chairman. Thank you.
    General Jacoby. Thanks.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Jacoby, General Kelly, thank you for being here, 
and thank you for your dedication to what is obviously most 
central to our issues of our national security, and that, of 
course, is the protection of our homeland.
    General Jacoby, I appreciate your characterization of the 
emerging threats that we see from Iran and North Korea. 
Probably our most important program that we have in trying to 
respond to an emerging threat is the issue of our missile 
defense. I was very concerned by last Friday's announcement by 
Secretary Hagel of the scrapping of the portion of the Phased 
Adaptive Approach that would have provided additional 
protection to the homeland.
    In our policy on missile defense, one of the tenets that we 
have looked for for technical capability is the concept of 
``shoot-look-shoot.'' With respect to North Korea, General 
Jacoby, do we have shoot-look-shoot capability in responding to 
a North Korean threat from the West Coast looking at our assets 
in California and Alaska?
    General Jacoby. Congressman, shoot-look-shoot makes a lot 
of sense. It makes a lot of sense as a warfighter, not just as 
a technological means of conducting our tactics for missile 
defense. So, you know, shooting down--you know better than 
anyone, shooting down a ballistic missile is a sniper weapon 
requirement; it is not a machine gun requirement.
    So we want to pursue shoot-look-shoot not just for North 
Korea but as a warfighter technique. Those are emerging 
capabilities and I can discuss them in detail with you in a 
closed session, but we are very much interested and have worked 
closely with MDA, Missile Defense Agency, to try to improve 
where we are in shoot-look-shoot.
    Mr. Turner. I appreciate that, General, and I look forward 
to that. But in an open session, I mean, it has been 
acknowledged that part of the reason why we had the final phase 
of the Phased Adaptive Approach providing that additional 
forward basing of missile defense to respond to Iran was 
because we had a deficiency on the East Coast with respect to 
shoot-look-shoot with Iran, both the--President Bush's third 
site that was proposed for Poland, President Obama's final 
phase of the Phased Adaptive Approach, was an attempt to plug 
that and provide that additional capability, was it not?
    General Jacoby. Phase four of the European Phased Adaptive 
Approach, specifically with the SM-3 [Standard Missile 3] Block 
IIB, was designed to provide a first shot at any Iranian 
missile that could be coming towards the United States.
    Mr. Turner. And then we would have the additional shot from 
Alaska that we would have as our additional backup.
    General Jacoby. That is correct.
    Mr. Turner. NORTHCOM, in its 2007-2008 GBI study, had 
proposed an East Coast site to look to providing that shoot-
look-shoot, that additional capability when we look to 
protecting the East Coast, both for Iran and for North Korea.
    Now that phase four of the Phased Adaptive Approach is 
scrapped, the--you know, obviously, we see even greater reason 
for that East Coast site, having been an initiative that the 
House put in the National Defense Authorization Act.
    I think you would agree, would you not--I mean, looking at 
your testimony from the Senate, that the--with--building out 
the Alaska field does not provide us that additional capability 
that an East Coast site would be or that the phase four of the 
Phased Adaptive Approach would have provided or the George Bush 
third site would have provided. Is that correct?
    General Jacoby. What building out the missile field at Fort 
Greely does for us is it allows us to increase our capability 
in a way that would serve both a threat from North Korea and a 
threat from Iran.
    And so as we have adopted the missile defense approach----
    Mr. Turner. General, I have a limited amount of time so I 
am sorry to interrupt you----
    General Jacoby. Sure.
    Mr. Turner [continuing]. But the NORTHCOM 2007-2008 GBI 
study took into consideration the Alaska site but still made a 
recommendation for an East Coast side. You would agree that 
that East Coast site would provide us additional capability 
that we cannot have in merely building on Alaska?
    General Jacoby. I would agree that a third site, wherever 
the decision is to build a third site, would give me better 
weapons access, increased GBI inventory, and allow us the 
battle space to more optimize our defense against future 
threats from Iran and North Korea.
    Mr. Turner. One additional issue that I would like to 
raise, the, you know, the old adage of ``all your eggs in one 
basket'' seems to be similar to the interpretation of the issue 
of Alaska.
    I mean, we do increase our vulnerability when we limit 
ourselves to a concentration of some missiles in California and 
a significant number in Alaska without that third site. I would 
think that would be an additional justification for a third 
site.
    General Jacoby. I wouldn't argue with you on that.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And General Jacoby, General Kelly, thank you so much for 
being here. I am sorry I missed the earlier testimony.
    But I wonder if I could just follow up with my colleague 
for a second, because, General Jacoby, it sounded to me like 
you didn't, you know, directly answer that question, and I am 
just wondering whether there are some real downsides to that 
consideration that, perhaps, have not been clear? And we are 
talking about the East Coast site, if you could expand on that.
    General Jacoby. All right. The original missile defense 
construct was for limited defense against limited threats that 
most of them postulated into the future. And what we have done 
is we have availed ourselves of some options that were left 
open to us by not abandoning the rest of--or finishing the 
construction of missile field two in Alaska, not abandoning 
missile field one. And so that has allowed us now to keep 
ahead, to outpace the threat in North Korea. And also it 
addresses an Iranian threat, as well.
    We are very pleased with the NDAA that has directed us to 
do a study, and it is going to allow us to keep making steps in 
the direction to provide us options in the future so that as a 
threat evolves we can keep pace or outpace the threat. And so I 
think we are on a good path with that.
    I will tell you, all of the missile defense activity really 
starts with intelligence. It really starts with our 
understanding of the threat and building that threat picture 
and keeping up with it. And so we have made important strides 
in that regard, as well.
    So I take all the points that have been brought up on an 
East Coast field. The fact of the matter is there is still work 
to be done on if a third site, where is the optimum place for a 
third site, given--balancing between those two threats, one of 
them far more advanced than the other threat?
    Mrs. Davis. Okay, thank you. I appreciate that because I 
think it is obviously a point of contention, and----
    General Jacoby. Sure.
    Mrs. Davis [continuing]. Doesn't sound like it is 
necessarily the strategic direction that we need to go right 
now.
    General Jacoby. What is not in contention is I fully feel 
responsibility and accountability for the defense of this 
Nation, not just from North Korea but from any threats to the 
Nation. And so I will be the strongest advocate for preparing 
ourselves and arming ourselves for evolving threat.
    Mrs. Davis. Thank you, General. If I could come back to you 
for a second, as well. I know that earlier discussing the three 
greatest threats in your area of command--and General Kelly, I 
am not sure if you weighed in in the same way on that on the 
three--and cyber obviously is one of those, and we certainly 
are well aware of that.
    I wondered if you could talk a little bit more, though, 
about what you see the impacts that such attack would have upon 
our homeland, and whether there are opportunities to use, 
perhaps, the National Guard differently in preparing for any 
cyber defense strategies. And are there other opportunities 
that you think, perhaps, because of cost constraints or just 
about anything else, that we are not doing to the extent that 
you would suggest?
    General Jacoby. On the cyber front, we share cyber concerns 
with Strategic Command and Cyber Command specifically. But we 
have great partners in the National Guard, strong partnership 
with the Department of Homeland Security and the FBI. And so 
that is how the spectrum of responsibilities kind of unfolds in 
the homeland, where the President's executive order and the PDD 
[Presidential Decision Directive] really helped illuminate some 
stratification of responsibilities, and I think that is 
swimming into focus pretty well.
    Within the Department, roles and responsibilities for the 
different components--Active, Title 10 Reserve, and National 
Guard--we are working hard on those. It is really important 
that in the cyber domain that the standards and certification 
of units that participate in cyber work have got to be of the 
highest; and really the commander that sets the pace and sets 
the standard is Cyber Command.
    General Grass and I met with General Alexander earlier this 
week to have this very discussion because we know that there is 
an important role for the Guard to play in support of our 
global, regional and State requirements for cyber.
    Mrs. Davis. May I just ask you, General, quickly, I think 
one of the concerns in this area, because it is relatively 
new----
    General Jacoby. It is.
    Mrs. Davis [continuing]. In the scope of things in terms of 
the pipeline of skill sets and the expertise. How comfortable 
are you feeling about the way in which that training and the 
opportunities for people to really--to work in this field is 
developing now?
    General Jacoby. I think it deserves our constant attention. 
You know, we are under tremendous uncertainty in terms of 
manning and budget and programs, and so I will tell you, 
though, this is General Alexander's domain. But he has got 
everyone's attention on the requirement for, as you say, 
ensuring that cyber warriors are in the pipeline to meet the 
future requirements, not just the day-to-day.
    In terms of what it might look like in the homeland, I 
would just say that we are concerned that a cyber--a large 
cyber attack on the homeland--and former Secretary Panetta 
characterized it as the potential 9/11 event--will have 
cascading effects. An event like that will have cascading 
effects.
    So they may hit the transportation network and shut things 
down maybe in the East Coast corridor, but it would be more 
than just stopping transportation. It would be the economic 
implications and other rippling effects into society.
    A good example of how that might unfold, really, was 
Hurricane Sandy.
    The Chairman. General, gentlelady's time has expired. She 
got that question in just at the close of her time.
    General Jacoby. I will be glad to talk to you about it at 
any other time----
    The Chairman. Thank you very much.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And, General Jacoby, before I get to my questions, I hope 
you remembered my invitation for you to join me for this fall's 
Talladega 500.
    General Kelly, you come with him. You will have a good 
time.
    General Jacoby, were you involved in the new missile 
defense posture decisionmaking that was recently announced on 
Friday?
    General Jacoby. Congressman, yes I was. It was a very 
collaborative and detailed process over the last several 
months.
    Mr. Rogers. Why was the decision made last week, 3 weeks 
before the budget is released? Why was it important, do you 
think, to go ahead and announce it last week?
    General Jacoby. I can't speak to the exact timing of the 
release. I know that it is a report that Congress asked for 
quite a while back and it was due.
    Mr. Rogers. I agree.
    Do you know when the President's security adviser is going 
to be making his trip to Russia to talk about more arms 
control?
    General Jacoby. No I do not, Congressman.
    Mr. Rogers. Okay. Are you aware that the Russians have 
repeatedly stated that the SMD--SM-3 IIB missile is a 
``dealbreaker'' for more nuclear arms control, which President 
Obama has indicated he wants?
    General Jacoby. I know the Russians have been unhappy with 
some of our missile defense program, but I can't speak to the 
details of that.
    Mr. Rogers. On Friday Under Secretary Miller stated, when 
asked if it had been a mistake to mothball the Missile Field 
One [Missile Field Number One at Fort Greely, Alaska], he 
responded, ``We saved resources at the time that we will now 
have to spend. But at the time the threat was uncertain, right? 
We didn't--we didn't know that we would--what we would see 
today--we did not know we would see today what we now see.'' 
Were we surprised by the North Korean threat?
    General Jacoby. I wouldn't characterize it as being 
surprised. I think that North Korea proceeded at a pace faster 
than we had anticipated and I think there were many factors 
involved in that, to include the change in leadership--the very 
dramatic change in leadership in North Korea over the past 
year.
    And so I think it is very appropriate that we proceed with 
continuing developments that allow us to outpace this North 
Korean threat.
    Mr. Rogers. But as far as capability, were we surprised by 
the successful recent test that they had and their new 
capability? I recognize the leadership change was unexpected.
    General Jacoby. Right. There have been several attempts 
with a TD-2 [Taepo Dong-2 intermediate-range missile] to put a 
space vehicle into orbit. The intelligence community was mixed 
on whether they would be successful, and I think that they--we 
have to consider that successful and we have to consider it a 
demonstration of their ability to pursue ICBM technology, as 
reflected in the rollout of the long-range, road-mobile 
missile.
    And so from the NORTHCOM perspective now, what that means 
is we honor that threat. Okay, so exactly where it is, exactly 
how many is still unclear. Is it operational? Is it not?
    But from a warfighter, from a commander's point of view, we 
honor that threat today.
    Mr. Rogers. Don't we have similar concerns with the Iranian 
potential threat?
    General Jacoby. As I mentioned earlier in my testimony, I 
believe that the Iranians are intent on developing an ICBM. 
They have had some successful space launches where they put 
into orbit satellites. I believe they are pursuing ICBM, as the 
director of national intelligence has testified as well, so I 
think that we have to proceed under the assumption that without 
any other intervening factor that they will continue to seek an 
ICBM and we should be prepared to improve our capabilities as 
required to meet the evolution of that threat.
    Right now, as you know, we are able to defend the United 
States against Iranian--a threat from Iran today.
    Mr. Rogers. Right.
    General Jacoby, can you elaborate on sensor improvements, 
including added deployments of sensors that NORTHCOM believes 
are needed? For example, would added X-band sensor coverage on 
the East Coast protect against threats from Iran?
    General Jacoby. Thank you.
    I have been a strong proponent to work across the entire 
enterprise and not to stay focused on just one piece. And so to 
have the best GBI in the world but not to have a redundant and 
resilient sensor architecture to support that wouldn't make 
sense. And so we very much look at the whole category of things 
to improve across the BMD enterprise.
    Now, as part of this rollout you know that TPY-2 
[Transportable Radar Surveillance]--a second TPY-2 into Japan 
is central to that and it gives us that redundancy and 
resiliency in our sensor architecture.
    You know that there are improvements that are being made in 
our UEWR [Upgraded Early Warning Radar] sites. We are strong 
proponents on that for both the West and the East Coast, and we 
should be fully prepared to add sensors to the program as 
required and as the threat develops.
    And it really has to do with, how sophisticated do our 
adversaries become over time and what does the sensor 
requirement become over time?
    The Chairman. Thank you.
    Mr. Rogers. Thank you very much. My time has expired.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman and Ranking Member.
    And good morning, General Jacoby and General Kelly.
    This question is for the two of you. The U.S. territories 
of Puerto Rico and the U.S. Virgin Islands have become 
increasingly affected by the drug trade. The most recent 
statistics provided by the U.S. Coast Guard, U.S. Customs and 
Border Protection, and the Drug Enforcement Administration show 
very steep increases in drug seizures in and around the 
territories in 2012 compared to 2011 with no corresponding 
decrease in the street price of drugs in either territory.
    Violence linked to the drug trade has also spiked, and the 
homicide rates in the two territories are the highest in the 
country by a substantial margin. I believe that this is a 
national security problem, given the fact that these are U.S. 
jurisdictions and the fact that the evidence suggests that up 
to 80 percent of the drugs that enter Puerto Rico and the U.S. 
Virgin Islands are subsequently transported by air and maritime 
means to the U.S.
    So can you comment on what steps NORTHCOM and SOUTHCOM are 
already taking to address drug-related violence and what 
additional steps you intend to take going forward to address 
this problem?
    General Jacoby. Thank you for that question. It is a great 
concern for us that--the levels of violence and NORTHCOM does 
have responsibility for Puerto Rico and the Virgin Islands and 
the Unified Command plan.
    One of the first things that we did was to send our defense 
coordinating officer and planners down to work with the Puerto 
Rico National Guard, and that is principally how we do business 
is we support civil authorities, we don't conduct separate 
operations.
    So we are very much in support of any initiatives that they 
may ask us to do, or our partners. And so Customs Border 
Patrol, Coast Guard, DHS [Department of Homeland Security]--I 
know that they are working a campaign plan for looking at the 
problems and how we can help.
    And my organization that would get behind that is Joint 
Task Force North. They are my go-to organization to provide 
Defense Department support to civil authorities. That will be 
constrained by the budget, by how much--how many resources we 
can put against it, but we will make it a priority as requests 
come in for support.
    Ms. Bordallo. Thank you.
    And, General Kelly.
    General Kelly. As we watch the drug trafficking patterns, 
most of it of course--well 20 years ago it all came up through 
that part of the Caribbean and into Florida primarily--well, 
certainly the East Coast of the United States. Those patterns 
changed as our partners and our own Government was successful. 
So as we stop that flow 20 years ago or so the flow now goes up 
through Panama--correction--Central America and Mexico.
    As we have been somewhat successful--I wouldn't say highly 
successful, but fairly successful--in an operation that was 
started by my predecessor, Operation Martillo, we have been 
pretty successful in getting an awful lot of cocaine primarily 
off the flow. As that has been successful, I think we have 
started to see--and you--as you point out, the traffickers 
finding another way around.
    The good news is, unlike 20 years ago, we watch this 
network pretty closely; we know what they are doing and we can 
detect even pretty small changes in their operation patterns.
    But at the end of the day, my responsibility is for 
detection and monitoring, and working shoulder to shoulder with 
law enforcement, the other heroes in this fight: the DEA, local 
law enforcement, FBI, Treasury, Justice. And they are really in 
the interdiction business.
    But, if I don't have assets, which I don't, all I can do is 
watch the drugs go by.
    Ms. Bordallo. Well, thank you. Thank you, General.
    And I have one quick question for you, General, again.
    This is regarding the State Partnership Program. I am a 
very strong proponent of the program and I value strong state 
relationships such as the one between Guam and the Philippines. 
I believe the National Guard state partnership program provides 
combatant commands with a tremendous tool to partner with 
allied nations.
    So can you comment of the value of this program in your 
command? And what, if any, other opportunities are possible for 
the expansion of the SPP [State Partnership Program] in the 
SOUTHCOM AOR?
    General Kelly. I agree with the Congresswoman that it is 
very, very useful, highly successful, as I mentioned to Mr. 
Wilson; he asked a similar question. We get a lot out of it for 
very, very, very little money. So I would certainly--I think we 
have 26 down in the SOUTHCOM AOR--be certainly happy to see 
that increase, but I think it does, to a large degree these 
days, come down to budget.
    Ms. Bordallo. Well, thank you very much.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Jacoby, General Kelly thank you so much for joining 
us today. We really appreciate your service to our Nation.
    General Kelly, I want to ask specifically about the 
criticality of the Navy's mission there in SOUTHCOM and that 
AOR, the things that are going on there. Obviously it is a 
pretty expansive mission. Want to get a perspective about what 
the sequester and the potential of the C.R. [Continuing 
Resolution] places there on Navy operations in that area.
    And we all know that recently the cancellation of the USNS 
Comfort's availability in that region. Just want to get your 
perspective on where you believe the operational capacity will 
be, where the needs may exist, and where there may be a gap 
potentially.
    General Kelly. Well, the need is there, certainly. The 
wonderful thing about Comfort is it is a tremendous outreach to 
people who in some cases have never seen the U.S. flag before 
and suddenly they are having, you know, fairly detailed medical 
procedures done for free. I mean, thousands and thousands of 
medical procedures.
    So the Comfort is a big deal. By the way, the Chinese have 
gotten involved in that as well and have deployed their own 
hospital ship to the region. To the best of my knowledge right 
now, Comfort is gone this year, it is--we are losing that and--
because of sequestration. And not just because of 
sequestration. I mean, when you take a $487 billion bite out of 
the budget things are going to start to fall, and then if you 
add another $500 billion on that.
    So Navy ops [operations] in my area of operations will 
essentially stop--go to zero, I believe. With a little luck, 
the United States Coast Guard, you know, the other heros in 
this fight--with a little luck I might--we might see a Coast 
Guard cutter down there, but we are going to lose airborne ISR 
in this--in the counterdrug fight, we will lose the Navy 
assets.
    Many of the assets we got--excuse me--many of the assets we 
got even in the recent past were just assets that were down in 
the Caribbean, as an example, training. And they have got to--
you know, they have got to be at sea so they come down and 
while they were training in the Caribbean or in the Eastern 
Pacific they participate in the drug fight, if you will. So a 
lot of this stuff wasn't even dedicated to me, it was just 
opportune.
    Same thing with some of the airborne ISRs. Believe it or 
not, B-52s [Stratofortress strategic bomber] and B-1s [Lancer 
strategic bomber] when they train have to train somewhere. The 
airplane doesn't know where it is when it is doing its training 
so we actually had aircraft like that flying over the 
Caribbean, JSTARS [Joint Surveillance Target Attack Radar 
System], opportune opportunity because they were training and 
we just, you know, benefited from that training exercise.
    So much of what we have gotten is not really dedicated to 
us, but simply we take advantage of it.
    Mr. Wittman. Okay. Very good.
    General Jacoby, I want to ask you specifically about the 
aerospace control alert system. As you know, it is our 24-hour 
system that allows us to respond.
    If you look at the Air Force budget it looks like that is 
going to be reduced significantly to where we will not have a 
24-hour alert capability, and obviously in looking at the 
effects of the sequester and the C.R. my question is, going 
forward--and I understand that the Air National Guard and the 
Air Force provide that dual capability there--how is the 
sustainment of that particular effort and the critical nature 
of that going to continue obviously in the face of that 
proposed reduction, but also in looking at sequestration and 
the C.R., and how important is having that 24-hour capability 
to our ability to detect and respond to threats?
    General Jacoby. Thank you.
    This is a core mission for NORAD, and so we are going to 
maintain a 24/7 capability.
    Last year a very tough decision was made to reduce two 
sites from 24/7 to a lower category. There was some uncertainty 
with the language coming back out, and so we believe that--we 
haven't seen the 2014 numbers but we believe that we still may 
lose those two, so we have a plan to stand those down. But that 
is not getting rid of the unit, that is not getting rid of the 
capability, that is coming down from 24/7.
    I believe I could mitigate that reduction but I don't want 
to take any more. And so across the country I still have 14 
bases where I have two fighters ready to go in 7 minutes. And I 
really think that that is the most rapid, most capable military 
response that our Secretary and President has at his finger 
tips and we are going to maintain that. It is essential to what 
we do.
    Mr. Wittman. Let me jump right in and ask this before my 
time runs out: So you will continue the 24/7 capability at 
those sites?
    General Jacoby. At the 14 remaining sites in continental 
United States, two in Canada, one in Alaska, one in Hawaii.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And thank both generals for being here today. We really do 
appreciate your service to this country.
    General Kelly, I know one of the previous members had asked 
questions as it relates to GTMO and alluded to the fact that he 
thought that defense attorneys were a great source of 
information in regards to the treatment of prisoners at GTMO. 
That may or may not be true.
    I will tell you having run a detention facility of 500 
prisoners, they weren't necessarily objective in their 
criticism, you think? Particularly when we ended pizza Fridays, 
that was a problem.
    So I am looking forward to a trip to GTMO to see exactly 
the living conditions for our troops, but also how we deal with 
those detainees, and you correctly pointed out that ICRC comes 
there unannounced--announced and unannounced--and I would 
suggest that that is a pretty independent group. I don't think 
they have always been supportive, and maybe you can answer 
that, and what has changed their mind from the past.
    General Kelly. They look at it kind of two--there are two 
parts to their--to a discussion with them, and almost certainly 
within the first few days of taking command they came by to 
just--we had a conference down in Miami down at my headquarters 
that they participated in and had to do with detainee office 
ops.
    They gave us high marks overall for how the detainees are 
cared for, housed, fed, medical care, but then the other part 
of it is--and I understand this and I have nothing but respect 
for what they do; I have worked with them in Iraq and other 
places--their idea is that their conditions should always 
improve ultimately until they are released.
    And so there are limits, whether it is Department of 
Defense or the commissions or other Government agencies are 
willing to let that go, but they always ask for more and we do 
the best we can to provide more--excuse me--but they are pretty 
independent and they are pretty happy with what they see down 
there.
    Again, their view would be, you know, housed in another 
place and maybe they question whether they should be there at 
all, but at the end of the day all I am really interested in is 
the marks they give me for how they, you know----
    Mr. Nugent. They care for them.
    General Kelly [continuing]. How humanely we treat them, 
yes. Exactly
    Mr. Nugent. You made a previous comment reference to 
Comfort not being deployed. What message does that send, 
obviously, because you are trying to build relationships with 
those in South America, and typically an underserved area from 
our perspective? How does that affect you?
    General Kelly. Well, as I think I said a little while ago, 
for the most part the people of the Caribbean, Central America, 
Latin America, they really want us in their lives; with a few 
notable exceptions, they want us in their lives.
    That means engagement. You know, it is funny, they don't 
ask for very much with the exception of, ``Hey, we are about to 
do something, and, you know, could you send down a few officers 
to help us plan this training exercise or naval exercise?'' So 
they ask for very little.
    And just to go down there, my trips down there is a big 
deal to them. We will send down a small number of, say, special 
forces guys, gals to train them in something, and--or a company 
of marines to go down to Guatemala and teach them riverine ops, 
that kind of thing. Very, very small investments.
    And so, to answer your question, you know, as those things 
are--not as many of those things under sequestration or even 
under the initial $487 billion cut, there will be fewer--less 
and less of that kind of thing. And then I would--I can't 
underscore enough, the Comfort is a huge deal to them down 
there. And to not have Comfort go down is--will catch their----
    Mr. Nugent. You made, I think, a very good observation that 
China is going to fill that void with their own ``Comfort,'' 
and flying the Chinese flag, particularly far away from where 
they live, right in our back door. So I am concerned about, you 
know, what message we are sending to our closest neighbors.
    What else do you see from China in regards to their 
influence in South America?
    General Kelly. I am watching the chairman, but they are 
very economically engaged, buying commodities in a big way and 
also investing in port facilities and the things like that. So 
they are very, very economically engaged throughout Latin 
America and the Caribbean.
    Mr. Nugent. I appreciate your comments. Thank you.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    And thank you, General Kelly and General Jacoby, for being 
here.
    You know, some of the issues raised today are legitimate 
concerns that we as Americans always have as to how we conduct 
our business.
    But as a Army medical officer who spent a year in Iraq at a 
detention facility in Iraq from 2005-2006 I have some firsthand 
knowledge of how we conduct our business. And I came home proud 
to say how we conducted our business.
    And I also found that often there were alleged activities 
that absolutely had no bearing and--on things that simply did 
not exist or take place. And I am sure you can appreciate that, 
sitting in your position.
    And I can attest to the quality of care that the detainees 
received in our facility because it was the same providers and 
the same care that was offered to our troops.
    And I can also say, for the record, that as far as I know, 
in the entire year that I was there, only one politician came 
to see what we were doing and that was the governor of Florida, 
Jeb Bush.
    Also, what was addressed earlier was a hunger strike. And I 
was involved with the hunger strike policy that we put in 
place. In our case it was a very high-value detainee, and I can 
attest to the very humane way that we go about the business of 
taking care of those not so much as detainees, but we looked at 
them as a patient.
    So just for the record, I am very proud of how we conducted 
our business, and I am hopeful and feel assured that you are 
conducting it the same way.
    My question is, at Guantanamo, where I have not been--and I 
am assuming but asking the question--the access to medical care 
for the detainees is the same as it is for our troops. Would 
that be correct?
    General Kelly. Absolutely.
    Dr. Wenstrup. Thank you.
    And I yield back my time.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. I apologize for 
having to be in and out. I have another committee that is 
having amendments that--with--that has recorded votes so that 
is why I was in and out.
    But both of you, thank you for your service to our country. 
Thank you for being here.
    General Jacoby, in particular, I want to greet you. It is 
always good to see you.
    And for the people including yourself and under your 
command who serve in Colorado Springs, you are such a great 
addition to our community and the public spiritedness. I just 
want to thank you for that.
    And I will ask a technical question now, because I couldn't 
turn down this opportunity. And it has to do with missile 
defense.
    And Chairman Rogers was referring to this earlier, but as 
part of the overall strategic decisions--and I applaud the 10 
additional ground-based interceptors that we are going to put 
on our homeland, but I am hoping--and I know he shares this 
same concern--I am hoping that that is not at the expense of 
what would have been stationed somewhere in Europe, like, let's 
say Romania, because that is much closer to the threat of Iran 
that we all know is a developing threat, an emerging threat, 
and does protect our homeland from Iranian ICBMs, should that 
day arrive. And we know that their intentions are to have an 
ICBM capability.
    Could you comment on that, General?
    General Jacoby. Congressman, thanks. And it is great to see 
you and I will be ready to get back home with you.
    So it is not really my lane for a European Phased Adaptive 
Approach. The rollout spoke the story of how the phases one 
through three will continue apace.
    Phase four was centered around the SM-3 Block IIB [Standard 
Missile-3 ballistic missile interceptor], and I want to make 
sure that we are thinking about this in time correctly.
    SM-3 Block IIB has been moving to the right for a long 
time. It is beyond 2020. It is--you know, we have a saying in 
the military, ``It is PowerPoint deep.''
    And so there were some aspects of SM-3 Block IIB that are 
being sustained. The advanced EKV [Exoatmospheric Kill Vehicle] 
design work that is being done, that will be of tremendous 
benefit. So that continues.
    But the option that was chosen was, if you place 14 more 
missiles at Greely you are going to outpace the future North 
Korean threat and still be able to defend against Iran. And so 
you wouldn't be able to do that with an ICBM shooter in Europe. 
You couldn't go both ways.
    So, where we are, juxtaposing both threats, was a good 
solid decision. And where we were on the SM-3 Block IIB 
program, it was a solid decision. And I won't speak for how the 
allies respond but I know that Admiral Stavridis is working 
through that right now and I would defer to him.
    Mr. Lamborn. Well, and I know that this isn't exactly what 
you concentrate on all the time but it is peripheral to the 
threats that you do handle and so, I appreciate your answer. 
And I understand that if we have constraints, what was decided 
may very well be the best decision. However, I am hoping--and 
will be working--that it is a both/and situation, not an 
either/or situation.
    General Jacoby. Right. And as the commander responsible for 
it, you know, we are not looking to compromise on the defense 
of the American people.
    Mr. Lamborn. Thank you. I have no doubt about that.
    I thank you again, and you, General Kelly, for the great 
service you have given our country.
    Thank you, Mr. Chairman. I yield back.
    Mr. Conaway. [Presiding.] The gentleman yields back.
    The gentleman from Oklahoma, Mr. Bridenstine, is recognized 
for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. I appreciate 
that.
    It is great to be here. I am a new guy to the United States 
Congress. I have been here for 2\1/2\ months. But I am a naval 
aviator and I have flown counterdrug missions in Central and 
South America, from, you know, Colombia and El Salvador.
    And I had a question for you, General Kelly, if you could 
share for us what the correlation is between successful 
missions down south and the price of cocaine at home, and if 
that is a reasonable way to measure success? Can you share with 
us your thoughts on that?
    General Kelly. Well, I think the more cocaine you take off 
the market before it gets to, you know, Anytown, USA, will--
just supply and demand will drive the price up.
    Of course, they do have a little bit of an advantage there, 
because they can also cut it more and drive the quality down. 
But at a certain point even the average drug user has got its 
limits in terms of the quality of the product he or she is 
using.
    But I think, again, if you drive--if you limit the amount 
that flows north, that gets into Anytown, USA, that price will 
go up. And with a lot of prediction, I think, fewer and fewer 
people will try cocaine, young kids, as an example. It is not 
to say they won't find another way to do harm to themselves, 
but I think that is a measure of success.
    I know the office--the White House office on drug reduction 
and all claims that the use of cocaine is down by 40 percent. I 
have no way to validate that number, but if it is down by 40 
percent or 30 percent or 2.5 percent, it just might mean one 
other family doesn't have to bury his or her--their children.
    Mr. Bridenstine. Absolutely. I hear a lot, as a member of 
Congress and somebody who just got through a campaign, that the 
drug war is not worth fighting. And I would attest that when we 
see success down south we do see the effect on the price of 
cocaine at home. And ultimately, you know, we can prevent 
people from becoming addicted by driving down the access here 
in the United States of America.
    So I just want to thank you for the work you are doing, 
thank you for all the people in Central and South America that 
are working so hard on this particular mission.
    One other question I had, and this will be it: When you 
consider the assets that we have in the Caribbean or the 
Eastern Pacific and how they match up with the targets that 
are, you know, available, can you talk for a minute about, are 
those assets correctly matched? And what can we, as member of 
Congress, do to maybe support you in the acquisitions process 
to match the--you know, the right asset with the right targets?
    General Kelly. Well, there are kind of three aspects of 
what we do in terms of the monitoring, detection, and 
ultimately some of the interdiction. You need good 
intelligence, and we have really, really good intelligence. We 
understand the network and have a lot of human intelligence 
sources, have a lot of NSA [National Security Agency] and 
things like that. And that is all managed for me down at JIATF-
South, Joint Interagency Task Force-South, in Key West.
    And then as that picture is built, then we can vector 
people like yourself when you flew, airborne ISR. And as I have 
already mentioned, we take any airplane that was available, to 
include B-1s and B-52s, at times, to search the ocean, find 
what we are looking for.
    And then rather than have, you know, the Coast Guard 
cutters or U.S. Navy ships just out patrolling like they did 10 
or 12 years ago looking, now we almost--JIATF-South can 
basically tell them where to go, you know, get there by a 
certain time, look off the port bow, and that guy that is going 
40 knots, go get him. And that guy going 40 knots might be 
doing, you know--might have 8 to 10 tons of very, very pure 
cocaine on board.
    We are getting better at it, and I don't want to get too 
much into it in an open forum, but they have--I mean, we are 
being so successful in many ways, they are now building their 
own submarines with long, long, long legs--you know, a 
submarine, fully submersible that can go 6,800 miles on a tank 
of gas. And they are fully submersible--not for that whole 
distance; they have to come up and recharge. But we have driven 
them to that. They have to build these things in--primarily in 
the--up the estuaries in Colombia, and then take them to sea.
    So that is how--I mean, that is a measure of effectiveness 
of how well we are doing on the high seas and in the air. We 
are forcing them underwater and we are working to get at them 
down there as well.
    Mr. Bridenstine. Thank you so much.
    Mr. Conaway. The gentleman's time has expired.
    The gentleman from Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    And gentlemen, thank you for being here. I have had the 
privilege of being able to visit with both of you in a private 
setting and I just--you know, I always try to take the time if 
I can, when people with stars on their shoulders that have 
given their lives to the cause of freedom and given my children 
a better chance to be free, I just want to thank you with all 
my heart for your service, and I appreciate your patience 
sometimes with some of the incredibly brilliant questions you 
get from this panel.
    With that said, let me try not to fall into that category 
here.
    General Jacoby, I wanted to just again thank you for your 
time the other day. And I am curious to see how protected you 
feel our critical defense assets are from potential severe 
space weather or manmade electromagnetic pulse. It is a broad 
subject.
    You know, one of the challenges we have right now, we are 
dealing a lot with cybersecurity. And of course, you know, our 
generals are doing everything they can to protect us from that 
but they don't have the supervisorial capability over the 
private I.P. [Internet Protocol] network. And the same is true 
of the civilian grid.
    And I just wondered if you could expand on that and maybe 
give me time to answer--ask General Kelly a question.
    General Jacoby. Sure. Thanks, Congressman. It is good to 
see you.
    Right now I start my day with a weather report, and that 
includes solar weather. It does have an effect on us. And so we 
track that very closely and we are very interested in the 
effects of any problems on the electric grid to critical 
infrastructure.
    And as you said, it is not just limited to defense critical 
infrastructure. Our general security is really in the hands of, 
you know, from private to Government to commercial, and so it 
is working as a team to discover what is critical, where are 
the nodes that need to be protected. And as we saw in Hurricane 
Sandy, there are cascading effects when the power grid goes 
down, so it is really important for us to be a partner in the 
larger effort to do that.
    Specifically for EMP [electromagnetic pulse], we are not 
tracking a--intelligence on an EMP threat today, but 
intelligence is really the key for us, but we do have 
vulnerabilities. So I think that as part of any assessment of 
our critical infrastructure that should be one of the important 
questions we ask about what would an EMP effect be.
    For my command itself, the NORAD, NORTHCOM, we are very 
well protected for EMP. We have critical national-level command 
and control systems that, as part of the development of those 
systems, EMP hardening was taken into account and we have done 
that.
    So also, it is important to ensure that we train ourselves 
in operating in a denied environment and we do that as well.
    Mr. Franks. Well, thank you, sir. I continue to be glad you 
are on our side.
    General Kelly, I wanted to just ask you that, you know, 
related to Admiral Greenert's testimony to this committee, he 
stated that unless our budget changes courses we will stop all 
aircraft deployments to South America and stopping efforts that 
interdicted hundreds of tons of illegal drugs in--coming into 
the United States in 2012. Can you explain to this committee 
the direct impact it will have on our Nation, from your 
perspective--that particular issue?
    And also, I guess a little more esoteric, do you feel that 
greater use of autonomous surveillance sensors and 
communications assets could help fill any gaps in the 
counterterrorism and illicit drug trafficking capability 
deficiencies that were highlighted by Admiral Greenert?
    General Kelly. Well, in terms of ships and the like, with 
almost scientific accuracy I can tell you that if we have one 
average--if we have one ship working the drug interdiction 
mission or actually detection monitoring and interdiction, one 
ship, I can tell you on average how much that ship will be 
responsible for taking off the market in the course of a year--
two ships, twice as much; three ships, and it goes up and up 
and up and up.
    By the same token, as you lose that capability on the water 
it goes down. So if I go to zero, you know, we--I believe we 
need 14 ships down there in the Pacific and in the Caribbean on 
any given day and we could really, really hurt this drug flow. 
I get on average about 5 or 6. That includes--I am sorry--
includes Coast Guard cutters as well, and they are very, very 
stressed, the Coast Guard is.
    So I get 5 or 6 if I am lucky. I suspect I will go to one 
or zero because of the budget issues. So all of that drugs 
that--all of those drugs will make their way up through Central 
America, Mexico, across the border, and right into Arizona.
    Mr. Franks. And as far as autonomous surveillance sensors, 
any increased need there?
    General Kelly. I mean, there are other ways to do this. 
Again, I would rather go in a classified setting. We are doing 
some things now, but things like drones and whatnot, just 
surveillance drones, could really help us out and really take 
the heat and wear and tear off of some of our manned aviation 
assets.
    Mr. Franks. Well, thank you both again for your service.
    And thank you, Mr. Chairman.
    Mr. Conaway. The gentleman's time has expired.
    I recognize myself for 5 minutes.
    General Kelly, it is good to see you.
    Good to see you, sir, General Jacoby, as well.
    Thank you for at least twice--I got here a little bit 
late--for getting into the record the $487 billion cut, as well 
as the $500 billion cut and the impacts as we are going--that 
those will have. And we appreciate the struggles we are going 
to have--you are going to have trying to make do with those 
much-reduced resources.
    Can you give us a bit of a brief on what is post-
Venezuela--or Venezuela will look like post-Chavez and the 
impact it has had--the influence that Chavez had throughout 
South America? Can you give what the current read is on what it 
is going to look like without him?
    General Kelly. As I know you know, Congressman, there were 
two parts of Chavez. You know, at least 51 percent of the 
population of his country thought very highly of him. He had 
tremendous charisma and could appeal to certain elements of his 
society. So that is one part of it.
    The other part is how, as a president, what the country--
what the condition of the country is right now. And of course, 
it is in tough shape. It is very, very high crime, high murder 
rates; economy is faltering. The petrochemical industry is old 
and needs and awful lot of money to restructure.
    The expectation is that the vice president will win the 
election on the 14th of April. He may or may not be a better 
president. He doesn't have any of the charisma and the 
belovedness, if you will, that Chavez had.
    So he will have a tough row to hoe, because I think he 
will--a lot of the things that maybe were happening or not 
happening in Venezuela, people were willing to say, ``Well, 
yes, we still love the President Hugo Chavez.'' Not going to 
have that advantage if you are not Hugo Chavez.
    So the expectation is that the vice president will be 
elected and that things will continue to be as they are in 
Venezuela, and who knows 5 years down the line.
    One of the things that I think many of the countries that 
benefit from Venezuela's largess--Cuba and some of the other 
countries--I think they realize that they cannot continue to 
get the very, very, very reasonable rates on loans and oil and 
things like that at the cost they get it. I don't think, 
probably, Venezuela can sustain that. So I think they are 
nervous that with Mr. Chavez gone, that by necessity the vice 
president, if he is elected--but anyone that is elected--will 
have to rethink the flow of money that goes out of the country 
to essentially buy friends.
    So they are nervous about it. Many of their economies are, 
these nations in particular, four or five of them, their 
economies are kind of weak. And if they actually had to pay 
world prices for oil or didn't get the very, very low-interest 
loans that they enjoy under Chavez they would be in real 
trouble.
    Mr. Conaway. Thank you, gentlemen.
    Mr. Smith, anything else?
    Mr. Smith. No, thank you.
    Mr. Conaway. Gentlemen, thank you for your long service to 
our country and your continued service.
    And this meeting is adjourned. Thank you.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]

=======================================================================




                            A P P E N D I X

                             March 20, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 20, 2013

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

         Fiscal Year 2014 National Defense Authorization Act--

                The Posture of the U.S. Northern Command

                       and U.S. Southern Command

                             March 20, 2013

    Good morning. The committee meets today to receive 
testimony on the posture of both our Northern Command and 
Southern Command. I am pleased to welcome General Charles 
Jacoby, commander of U.S. Northern Command and North American 
Aerospace Defense Command, and General John Kelly, commander of 
U.S. Southern Command. Gentlemen, thank you for your long and 
distinguished service to our Nation and thank you for joining 
us today.
    Even as we proceed in this difficult budget environment and 
the news commands our attention to Africa and the Middle East, 
we must be diligent in keeping our hemisphere safe. Therefore, 
I was pleased by the Administration's announcement last Friday 
affirming the program of the previous Administration to deploy 
44 ground-based interceptors at two sites in California and 
Alaska. On the other hand, cancelling the fourth phase of the 
EPAA sends a terrible signal to America's allies. I would have 
hoped after the 2009 fiasco, we would stop waking up our 
Eastern European allies to tell them, at the last minute, that 
we're changing our missile defense plans on them. General 
Jacoby, I look forward to learning more about how we're filling 
the gaps in our homeland missile
defense.
    I also look forward to hearing your assessment of the 
progress being made by the new President of Mexico on drug-
related violence and what NORTHCOM is doing to support Mexico 
and build their capacity and capabilities. This is a threat 
daily and directly impacting the U.S. homeland, and we need to 
treat it as a national security imperative.
    General Kelly, in my mind, the illicit trafficking threat 
is the greatest challenge we face in your geographic area of 
responsibility. While we continue to see success in Colombia, 
destabilization and violence in Central America is rampant. 
Tackling these issues requires close collaboration and 
coordination with NORTHCOM, as well as interagency partners. 
Unfortunately, the Navy will eliminate its ship presence in the 
Caribbean in April due to sequestration. This guarantees an 
increased flow of drugs and illicit networking across our 
borders. To that end, please elaborate on the other 
consequences of sequestration on both of your commands.
    Gentlemen, thank you again for appearing before us today.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

         Fiscal Year 2014 National Defense Authorization Act--

                The Posture of the U.S. Northern Command

                       and U.S. Southern Command

                             March 20, 2013

    I would like to join Chairman McKeon in welcoming General 
Kelly and General Jacoby. We appreciate your time and look 
forward to hearing your thoughts.
    Moving forward, sequestration will continue to complicate 
how the Department of Defense plans and appropriates resources. 
That will certainly have an impact on your day-to-day 
operations as well as your ability to achieve your 
requirements. In light of this challenge, and the other 
challenges you face, I look forward to hearing from you.
    General Kelly, after your first few months at SOUTHCOM, I 
am interested in your thoughts on the important issues in your 
new portfolio. These issues continue to be the nontraditional 
threats in the region, the rising violence and instability in 
Central America, our military-to-military cooperation in the 
area, and your counternarcotics duties. I would also like to 
hear about our continuing work with Colombia and finally your 
impressions about the detainee mission at Guantanamo Bay. While 
SOUTHCOM continues to lack traditional military threats to the 
United States, these issues are important to the United States 
and often require an interagency approach to address them.
    General Jacoby, you and the dedicated men and women of 
NORTHCOM and NORAD have been very busy lately, carrying out 
various missions to defend our homeland. Your support to civil 
authorities have been indispensable as our Nation responded to 
massive fires and devastating hurricanes over the last year. 
Internal threats such as these are increasing annually and 
appear to be growing in intensity.
    External threats such as those posed by North Korea and 
Iran are also growing as they seek to improve their 
capabilities to launch long-range missiles. I was pleased last 
week to see that the Administration continues to respond 
appropriately and firmly by bolstering our capabilities and 
capacity to defend ourselves. The Administration's decision to 
deploy 14 additional ground-based interceptors is a wise and 
prudent step in implementing a sound strategy for missile 
defense. General Jacoby, I trust we will learn more about this 
decision during your testimony as well as better understand the 
Administration's long-term efforts to make smart investments to 
improve the effectiveness and reliability of our missile 
defense capability.
    I would also ask that you comment on the defense and 
security partnerships with our northern and southern neighbors 
as we pursue mutual security interests.
    Again, thank you all for your time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 20, 2013

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. What would the cost range be for an additional missile 
defense site (including cost of construction, GBI procurement, 
maintenance, personnel, etc.)? What were the total costs of the missile 
fields at Fort Greely and Vandenberg AFB?
    General Jacoby. This question is best answered by the MDA. 
USNORTHCOM provides warfighter requirements to the MDA, which shape the 
development of new capabilities.
    Mr. Smith. What other installations would be required at an East 
Coast site and what would the cost for those be (including radar 
systems, command and control systems, satellite ground stations, 
security, fencing and alarms, roads, runways, and other access)?
    General Jacoby. This question is best answered by the MDA. 
USNORTHCOM provides warfighter requirements to the MDA, which shape the 
development of new capabilities.
    Mr. Smith. The National Academy of Sciences report recommended an 
East Coast site assuming a new type of interceptor booster and EKV were 
developed. Is there a plan for a new interceptor acquisition program? 
What would the costs be for a new booster and EKV? How long would 
development of the new interceptor take?
    General Jacoby. These questions are best answered by the MDA. 
USNORTHCOM provides warfighter requirements to the MDA, which shape the 
development of new capabilities.
    Mr. Smith. Why did the DOD reject Grand Forks, North Dakota, as a 
potential GMD site?
    General Jacoby. This question is best answered by OSD and MDA. 
USNORTHCOM provides warfighter requirements to the MDA, which shape the 
development of new capabilities.

    Mr. Smith. What is the legal obligation of the U.S. Government in 
providing treatment for detainees for life saving/emergencies that is 
readily available in CONUS, but not at GTMO (i.e. cancer, dialysis, 
etc)?
    General Kelly. The legal obligation of the United States for the 
medical treatment of detainees is rooted in international law, Common 
Article 3 of the Geneva Conventions, and the Detainee Treatment Act of 
2005. These principles of law are reflected in Department of Defense 
Instruction, ``Medical Program Support for Detainee Operations,'' which 
provides that ``to the extent practicable, treatment of detainees 
should be guided by professional judgments and standards similar to 
those applied to personnel of the U.S. Armed Forces.''
    Detainee health care is provided by the Joint Task Force Guantanamo 
(JTF-GTMO) Joint Medical Group (JMG), a group of more than 100 
uniformed military health care professionals, and supported by the 
Guantanamo Bay U.S. Naval Hospital. These doctors, nurses, and support 
personnel provide detainees the same level of general health care given 
to U.S. Armed Forces, applying identical professional judgments and 
standards in caring for the detainee population. This health care 
includes providing life-saving and emergency services to the extent 
they are available at Guantanamo through the JMG detainee health clinic 
and the Naval Hospital. Sustained medical care for more complex and 
enduring illnesses may exceed the capabilities of Guantanamo Bay, and 
are case dependent.
    Mr. Smith. What is the legal obligation of the U.S. Government in 
the event a detainee refuses to eat and/or accept medical treatment, 
putting his own life in
danger?
    General Kelly. The legal obligation of the United States to provide 
health care to the detainees is based in international law, Common 
Article 3 of the Geneva Conventions, the Detainee Treatment Act of 
2005, and the Department of Defense Instruction, ``Medical Program 
Support for Detainee Operations.'' Health care personnel have a duty to 
perform, encourage, and support, the humane treatment of detainees and 
to ensure that no individual in the custody of the Department of 
Defense shall be subject to cruel, inhuman, or degrading treatment or 
punishment.
    We recognize a legal and moral obligation to take action in the 
event a detainee puts his own life in danger by refusing to eat, or by 
refusing medical treatment. Prevention of unnecessary loss of life of 
detainees through standard medical intervention includes involuntary 
medical intervention when necessary in cases involving detainee's who 
lack the mental capacity to appreciate the impact of their decisions.
    Mr. Smith. Would there be any occasions in which there would be a 
difference in care for a seriously ill service member at Guantanamo and 
a seriously ill detainee? For example, are there medical situations in 
which a service member would be sent by medevac to Miami and a detainee 
would not be?
    General Kelly. Yes. The difference between detainee medical care 
and that of U.S. military personnel is that the latter will be brought 
to the CONUS for any critical or specialized care required that is 
beyond the capabilities of the Guantanamo Bay Naval Hospital. Detainees 
must be treated with the medical assets available at Guantanamo; 
however, medical specialists may be brought to GTMO to provide 
specialized care for detainees.
    Since 2009, each successive National Defense Authorization Act has 
prohibited the use of funds by the Department of Defense to ``transfer, 
release, or assist in the transfer or release to or within the United 
States, its territories, or possessions'' those detainees currently 
held at Guantanamo.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. ROGERS
    Mr. Rogers. Are you confident that the 20 CE-1 interceptor GBIs we 
deploy are an operational capability to defend the homeland against 
ballistic missile threats?
    General Jacoby. I am confident that the GMD system, which includes 
the 20 CE-I interceptors, can successfully defend the United States 
against limited ballistic missile threats. It is important that we 
continue to test and update our interceptors.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General Jacoby, in your statement you discuss your 
work with U.S. Cyber Command to establish a Joint Cyber Center to 
recognize and assess cyber threats to the homeland. General, can you 
characterize how proactive vs. reactive your efforts are today against 
foreign cyber threats and attacks? Are you able to stay ahead of the 
perilous entities that wish to do our Nation harm in this domain? The 
reach of this threat is frightening because it touches so many parts of 
American's lives. Are you working with nonmilitary cyber entities to 
ensure we do not bore scope our efforts and focus, and potentially miss 
large attacks that threaten our homeland?
    General Jacoby. We are proactive in our defensive posture for NORAD 
and USNORTHCOM command and control systems in that we strive to 
minimize known vulnerabilities. Having the capability to identify 
malicious cyber activity targeting our critical networks and the 
ability to mitigate that threat when it occurs is essential for mission 
assurance.
    The Nation's capacity to stay ahead of entities that aim to do our 
Nation harm in the cyber domain is improving, but much more needs to be 
done. The cyber capability associated with NORAD and USNORTHCOM's Joint 
Cyber Center is directly tied to DOD's increase in cyber capacity, 
realized through changes in strategy and evolving awareness and 
synchronization efforts alongside a host of mission partners including 
DOJ, FBI, and DHS. It will take time to allocate and train the 
necessary workforce.
    My commands collaborate daily with non-military mission partners, 
gaining insight into malicious cyber activity with the potential to 
impact our ability to execute our assigned missions. We work most 
closely with DHS to improve our domestic cyber situational awareness 
and to appropriately plan for potential response and recovery support 
of civil authorities, if requested in the event of a serious domestic 
cyber attack.

    Mr. Wittman. General Kelly, you mentioned the Lebanese Hezbollah 
and Iranian connections to your theater. Can you discuss any possible 
links between these groups and the drug trade? Furthermore, with 
special operations forces and ISR assets in high demand in CENTCOM and 
AFRICOM right now, and a limited presence in your AOR, how do we 
maintain an active awareness and continue to foster the relationships 
that we have built in SOUTHCOM? Do you see these narcoterrorist 
organizations connections maturing and growing unchecked?
    General Kelly. Some Latin American drug trafficking organizations 
with links to Lebanon maintain family and business connections to 
Lebanese Hezbollah. An unknown portion of their profits benefits 
Lebanese Hezbollah. Narcotics traffickers are generally motivated by 
profit and refrain from activity that will increase scrutiny by law 
enforcement. Conversely, terrorist organizations are ideologically 
driven and seek public recognition for their actions. These inimical 
motives will continue to limit collusion between the two groups.
    Diminished Department of Defense ISR allocation means we rely on 
contract ISR, organic human intelligence, open source and social media. 
We foster interagency/partner nation relationships to maintain 
awareness in the AOR. SOUTHCOM also promotes regional cooperation and 
intelligence sharing among partner nations by underscoring 
transnational organized crime as a hemispheric problem, which requires 
regional collaboration to counter successfully. Through conferences, 
workshops, bilateral and multilateral events, we have exposed partner 
nations to a new analytical tool that changed the way intelligence and 
information is shared with and among our partner nations. The Whole-of-
Society Information Sharing for Regional Display (WISRD) process 
enables countries to share information. WISRD uses a Google Earth 
geospatial tool to organize and display complex information, which 
results in a three-dimensional regional common operating picture of the 
complicated transnational organized crime environment. This process 
provides a comprehensive common characterization to assist with 
identifying information gaps so nations can work together to satisfy 
them. Several Central/South American countries currently use WISRD 
successfully.
    The expanded awareness of illicit activities as a hemispheric 
problem has increased traditional partnerships to include extra-
regional countries like Mexico and Canada, bringing an added dimension 
to international collaboration. We have leveraged strategic partners 
such as Colombia and Brazil to take on leadership roles and export 
knowledge and lessons learned throughout the region. SOUTHCOM also 
provides the technology employed by most partner nations to share 
intelligence and information with their counterparts.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. In GAO's report to Congress in January 2012, it 
was noted that NORTHCOM was working to establish the commander's intent 
and missions in the Arctic, as well as identify capability shortfalls. 
Please provide an update on the effort to establish this framework and 
what you view as NORTHCOM's mission in the Arctic. What capability 
shortfalls currently prevent you from meeting this mission?
    General Jacoby. As the DOD advocate for Arctic capabilities, I 
engage with our key Arctic region stakeholders to evaluate future 
capabilities and coordinate operations in the Arctic. Examples of these 
efforts include the DOD/DHS Capabilities Assessment Working Group White 
Paper I endorsed along with ADM Papp, Commandant of the U.S. Coast 
Guard (USCG), which assesses required capabilities in the Arctic in the 
areas of communications, Maritime Domain Awareness, infrastructure, and 
presence. These areas have been explored by NORAD and USNORTHCOM's 
exercise program, working closely with Canadian Joint Operations 
Command (CJOC), to look for high-payoff partnerships and burden sharing 
for Arctic investments. Additionally, as part of our Arctic campaign 
plan, we are forming a partnership between my Alaska-based operational 
headquarters, Joint Task Force Alaska, and the University of Alaska, 
Fairbanks to bring Arctic expertise together in a collaborative forum 
to shape the required capabilities way ahead. Lastly, in December 2012, 
I signed the Tri Command (NORAD, USNORTHCOM, CJOC) Framework for Arctic 
Cooperation at the Permanent Joint Board on Defense to promote enhanced 
military cooperation in the preparation and conduct of defense, 
security, and safety operations in the Arctic. My missions in the 
Arctic region are consistent with the rest of my area of 
responsibility: homeland defense (HD), defense support of civil 
authorities (DSCA), and security cooperation with our partners. My 
intent in the Arctic is to defend U.S. national security interests and 
support homeland security interests in a complementary manner with 
Canada to advance security, safety, and stability in the region. These 
missions also involve cooperative efforts with key partners such as 
U.S. European Command, CJOC, USCG, and other U.S. interagency and State 
of Alaska partners that contribute to
the peaceful opening of the Arctic in a manner that strengthens 
international
cooperation.
    Although the Arctic is an austere operating area, even in the warm 
summer season, today I do not currently have capability shortfalls that 
prevent me from accomplishing my missions of HD, DSCA, and security 
cooperation.
    Ms. Shea-Porter. What steps is NORTHCOM taking, as recommended by 
the 2010 Quadrennial Defense Review, to enhance maritime domain 
awareness, communications, and search and rescue capability in the 
Arctic?
    General Jacoby. U.S. Northern Command (USNORTHCOM) has accomplished 
the following actions since the 2010 QDR:
    <bullet>  Admiral Papp and I endorsed the Arctic Capabilities 
Assessment Working Group White Paper, which identified DOD and DHS 
shared capability gaps and potential solutions in the categories of 
communications, Maritime Domain Awareness, infrastructure, and 
presence.
    <bullet>  In conjunction with the Canadian Joint Operations 
Command, NORAD and USNORTHCOM signed the Tri-Command Framework for 
Arctic Cooperation that outlines areas for close coordination and 
collaboration on Arctic issues.
    <bullet>  USNORTHCOM conducted a baseline assessment for Arctic 
domain awareness. The output of the assessment provides the foundation 
for requirements generation, plans development, and follow-on studies.
    <bullet>  USNORTHCOM supports the Northern Chiefs of Defense Forces 
and Armed Forces Security Roundtable meetings aimed at improving 
security, willingness, and cooperation on difficult issues facing the 
Arctic nations.
    <bullet>  Proposed operations, plans and improvements in the Arctic 
are regularly exercised and supported. USNORTHCOM recently sponsored FY 
12 exercises and workshops for Arctic stakeholders. The Arctic 
Collaborative Workshop brought together Federal, State, local, tribal, 
academia, and industry stakeholders to focus on SAR and oil spill 
response activities in the Arctic.
    <bullet>  Joint Task Force Alaska (JTF-AK), my operational 
headquarters in Alaska/Arctic, has been engaged at the tactical level 
in exercising Arctic SAR and developing tactics, techniques, and 
procedures. JTF-AK conducted a SAR exercise (SAREX) in February 2013 
where an Arctic Sustainment Package was tested. JTF-AK is scheduled to 
conduct a SAREX with the Joint Rescue Coordination Center Victoria at 
the end of April 2013 to test an Arctic Sustainment Package with a 
Canadian Major Air Disaster (MAJAID) kit.
    Ms. Shea-Porter. The 2010 National Security Strategy states, ``The 
United States is an Arctic Nation with broad and fundamental interests 
in the Arctic region, where we seek to meet our national security 
needs, protect the environment, responsibly manage resources, account 
for indigenous communities, support scientific research, and strengthen 
international cooperation on a wide range of issues.'' In Section 5 of 
DOD's Arctic Report to Congress, DOD notes that, ``The U.S. Government 
has enduring national interests in the Arctic, including security, 
economic, and scientific interests,'' and that ``it is clear there is a 
current and continued future imperative to provide a sovereign maritime 
presence in the region.''
    Since there is an imperative for a ``sovereign maritime presence'' 
not only in the future but right now, and DOD says that, `` . . . only 
ice-capable ships provide assured sovereign presence throughout the 
region and throughout the year,'' what would be the minimum and optimum 
numbers of icebreakers to address U.S. national security needs in the 
Arctic region? As noted by the GAO, DOD did not specify in Sec. 5 of 
the Arctic Report.
    General Jacoby. Admiral Papp, Commandant of the U.S. Coast Guard 
(USCG) is the advocate of the ice-breaking mission area. I support his 
ongoing assessment of ice-breaker requirements and the development of 
those platforms. NORAD and USNORTHCOM are working closely with the USCG 
as they develop their Polar Icebreaker Concept of Operations.
    ADM Papp and I also endorsed the joint DOD-DHS Arctic Capabilities 
Assessment White Paper which identifies the requirement for polar ice-
breaking capability. As expressed in my 2013 posture statement, I 
believe the United States should maintain an ice-breaking capability as 
it is essential for successfully operating in this new dimension of the 
global commons. National security interests closely follow economic 
interests; increased activity in the Arctic requires deliberate 
preparation to guarantee economic access, ensure freedom of navigation, 
and deter transnational crime.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. Can you discuss ship presence in your AOR and how that 
has affected your mission in light of the new defense strategy and 
budget? What level of cooperation do you have with the Coast Guard in 
counternarcotics operations in Latin America? Can you provide any 
detail on the performance and needs of our Nation's new National 
Security Cutters?
    General Kelly. In Fiscal Year (FY) 2012, Joint Interagency Task 
Force-South (JIATF-S) efforts were supported by a 10.2 ship presence, 
where 1.0 ship presence is defined as one ship working on station each 
day for 365 days. A much larger number than 10 ships is required to 
sustain this presence for a full year.
    The U.S. Navy provided 30% of the total presence, the U.S. Coast 
Guard (USCG) provided 59%, and the remainder was provided by our 
European and Canadian allies. The FY 2013 ship allocation, to support 
the statutory detection and monitoring (D&M) mission under 10 USC 
Sec. 124, was 8.3 ships with Department of Defense (DOD) and USCG 
providing 31% and 61% percent respectively. On 5 April 2013, the 
average ship presence fell to 2.0, provided solely by the USCG and 
allies, and is expected to remain at this level through the remainder 
of the Fiscal Year. No U.S. Navy ships will be assigned to the D&M 
mission for the remainder of FY 2013.
    These reductions will impact U.S. and partner nation law 
enforcement efforts and significantly degrade our ability to support 
partner nation counter illicit trafficking operations. In terms of 
cocaine seizures, JIATF-S expects, at a minimum, an additional 62 
metric tons to escape interdiction, which in effect, is a 41% decrease 
in cocaine disruptions compared to FY 2012.
    The majority of the maritime assets and a large portion of the 
aviation assets under JIATF-S tactical control (TACON) are provided by 
the USCG, and this partnership remains incredibly strong. The maritime 
interdiction continuum consists of JIATF-S execution of D&M operations, 
and as coordinated through USCG Districts Seven and Eleven, executing 
interdiction and apprehension (I&A) activities conducted by Law 
Enforcement Detachments (LEDET).
    The performance of the National Security Cutter (NSC) in support of 
JIATF-S operations has been impressive. During five deployments between 
June 2009 and March 2013, totaling approximately twelve months in the 
AOR, the National Security Cutters BERTHOLF and WAESCHE have disrupted 
and/or seized 7.5 metric tons of cocaine, apprehended 30 detainees and 
seized and/or destroyed 10 vessels. The unique capabilities of these 
new cutters--greatly increased endurance and speed, high readiness 
rate, a large helicopter flight deck, an over the horizon high speed 
small boat, coupled with significantly improved command and control/
intelligence gathering capabilities--make them vastly superior to 
previous/current vessels. The synergistic effect of these capabilities 
is ideally suited to the vastness of the USSOUTHCOM Area of 
Responsibility, creating a true force multiplier, for both the 
counternarcotics D&M and I&A missions. The state-of-the-art 
capabilities of the NSC gives it unique, dual tactical advantage 
against air as well as maritime surface narcosmuggling targets of 
interest (TOIs) in ways not achievable by other maritime assets in the 
U.S. Government inventory.
    Mr. Palazzo. With the proposed end strength of our Reserve and 
National Guard, and then the restructuring of SOUTHCOM, are we as 
prepared to respond to future natural disasters and other emergency 
humanitarian crises in the region as we have been in the past?
    General Kelly. The short answer is no. As an economy of force 
command, SOUTHCOM has long depended upon deployed naval assets to 
provide a rapid response capability. Lack of the availability of a U.S. 
Navy amphibious ship during hurricane season seriously degrades our 
ability to respond quickly in the Caribbean basin (especially Haiti) 
and to remote areas of the coast of Central America.
    For small scale disasters in Central America, Joint Task Force 
BRAVO helicopter and medical assets at Soto Cano, Honduras will 
continue to enable SOUTHCOM to quickly respond to logistics and medical 
requirements to reduce loss of life.
    For a large scale disaster response, SOUTHCOM continues to rely on 
capabilities contained in the Global Response Force (GRF), and requests 
unique capabilities not contained in the GRF be placed on an alert 
status during hurricane season. Rapid sourcing of required Active Duty 
and Reserve capabilities is critical to providing time sensitive 
humanitarian and life saving disaster response operations, both in 
support of HQ SOUTHCOM and deployed Joint Task Force requirements.
    Mr. Palazzo. Is there an optimal mix of Active and Reserve forces 
to execute SOUTHCOM's mission? What are we doing to enhance 
collaborative defense and security capability in the region?
    General Kelly. Optimally, SOUTHCOM would receive more Active 
Component personnel, but due to our low priority in the Force 
Allocation Decision Model, SOUTHCOM tries to cover gaps in the Active 
Component force structure with Reserve Component personnel. As an 
economy of force command, with no assigned forces, we must optimize the 
forces made available to us to execute our mission. Our objective is to 
maintain persistent presence, to the maximum extent possible, 
throughout the theater to remain the partner of choice in the region. 
Reserve forces are critical for sustained operations at the SOUTHCOM 
Headquarters, Components, and Security Cooperation Organization.
    The USSOUTHCOM Theater Engagement Program engages Partner Nations 
(PNs) in our Area of Responsibility (AOR) on issues of mutual concern 
to share information, exchange ideas, and assist in building the 
capacity and capability of their security forces. Our exercises and 
engagements focus on building PN capacities in Humanitarian Assistance/
Disaster Relief (HA/DR), maritime security, interdiction, 
interoperability and peacekeeping operations. We use Foreign Military 
Sales (FMS), Foreign Military Financing (FMF) and the International 
Military Education and Training (IMET) program, collectively known as 
Security Assistance, to build PN capabilities and interoperability with 
U.S. systems and methods that foster regional stability through sharing 
of common defense challenges. Our Civil Affairs and Humanitarian 
Assistance programs improve access, create visibility, and increase 
U.S. influence in the region, while building PN capacity to overcome 
natural disasters. The National Guard's State Partnership Program 
produces a persistent relationship between U.S. States and PNs in the 
AOR that supports mutual interests and often goes beyond the military-
to-military ties to promote links with all levels of society. Finally, 
we leverage International Research and Development programs to build
capacity, promote domain awareness, counter illicit trafficking, and 
create
technologies that will assist during humanitarian assistance and 
disaster relief
operations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
